<html>
<title> - EXAMINING THE U.S. POLICY RESPONSE TO ENTRENCHED AFRICAN LEADERSHIP</title>
<body><pre>[Senate Hearing 112-475]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-475
 
  EXAMINING THE U.S. POLICY RESPONSE TO ENTRENCHED AFRICAN LEADERSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
75-022                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
RICHARD J. DURBIN, Illinois          MIKE LEE, Utah
TOM UDALL, New Mexico                BOB CORKER, Tennessee

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Carson, Hon. Johnnie, Assistant Secretary of State for African 
  Affairs, U.S. Department of State, Washington, DC..............    10
    Prepared statement...........................................    14
Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Fomunyoh, Dr. Christopher, senior associate and regional director 
  for Central and West Africa, National Democratic Institute, 
  Washington, DC.................................................    36
    Prepared statement...........................................    39
Gast, Earl, Assistant Administrator for Africa, U.S. Agency for 
  International Development, Washington, DC......................    18
    Prepared statement...........................................    20
Ibrahim, Dr. Mo, founder and chairman of the board, Mo Ibrahim 
  Foundation, London, UK.........................................    32
    Prepared statement...........................................    35
Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     9
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1

                                 (iii)

  


  EXAMINING THE U.S. POLICY RESPONSE TO ENTRENCHED AFRICAN LEADERSHIP

                              ----------                              


                       WEDNESDAY, APRIL 18, 2012

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons, chairman of the subcommittee, presiding.
    Present: Senators Coons, Kerry, Isakson, and Inhofe.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I'm pleased to chair this hearing of the 
African Affairs Subcommittee, and would like to welcome my good 
friend, our chairman, John Kerry, who has joined us for an 
opening conversation, and my good friend and colleague, Senator 
Isakson, and other members of the committee as well who have 
joined us here today.
    Today's hearing will examine U.S. policy in response to 
entrenched African leadership. But before we move to that main 
focus for today's hearing, I also want us to have the 
opportunity today to take advantage of some insights and some 
opportunities.
    Senator Isakson has just returned from a trip to Uganda. 
And given the distinguished panel we have before us, the 
chairman and I agreed this would be a great opportunity for us 
to examine developments on another critical issue in the 
region, that of the Lord's Resistance Army and United States 
efforts to remove Joseph Kony from the battlefield, in 
partnership with our regional allies and United States efforts 
to counter the LRA and to lead the effort to recover from its 
crimes against humanity in Central Africa.
    With that, Chairman Kerry.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Well, thank you very much, Chairman Coons. I 
really appreciate it.
    First of all, let me just say how much I really appreciate, 
and I think the whole committee does, your leadership, the 
leadership of Senator Isakson, and the leadership and 
commitment also of Senator Inhofe, who has been particularly 
focused on the LRA but also on issues of concern to Africa.
    We haven't got a better twosome as subcommittee chair and 
ranking than these two folks here, these two Senators, who are 
providing critical oversight and engagement and creative 
thinking with respect to what sometimes has been a forgotten 
continent, but not under their stewardship. And I might add, 
not under Secretary Carson's stewardship.
    The purpose of being here for the hearing, fundamentally, 
is to look at the topic of entrenched leadership and U.S. 
policy. I think it's important to look at the impact of what 
happens when a President or Prime Minister or a party remains 
in office too long, sometimes through outright dictatorship, 
but often through more subtle means of domination.
    We've had examples in the last year or so, from Cairo to 
Dakar, to remind us that the consent of the governed has always 
been an essential force, and all the more so now that instant 
communication has the ability to transform descent into 
protest, and protest into revolution.
    Trust is the heart of governance, and I think it's clear 
that people will no longer tolerate Presidents for life.
    So I'm very pleased that the subcommittee is going to look 
at the subject it is going to look at here today, with a very 
distinguished group of witnesses, including Dr. Mo Ibrahim, who 
first helped launch the telecommunications revolution in Africa 
and is helping to promote transformations to responsible 
governance.
    And we are so appreciative of your being here and respect 
your work.
    If I can just say, very quickly, the topic, therefore, is 
about entrenched leaders, but we want to focus, in these first 
moments, for a specific reason, on entrenched war criminals, 
entrenched menace to civility. And the reason we want to do 
that today is that Senator Isakson is just back from traveling, 
and Secretary Carson was not available next week when the full 
committee wanted to do this.
    I just thought, frankly, at Senator Coons' suggestion, that 
we should take advantage of the freshness of Senator Isakson's 
journey, and Secretary Carson's presence here, to focus on 
something that really doesn't deserve to wait a matter of 
weeks. It's waited, frankly, for too many years. And that is 
the question of Joseph Kony and the Lord's Resistance Army.
    Senator Coons has introduced a resolution on the LRA. It is 
new to some Americans, but he has been an all too familiar 
nightmare to too many people for too long.
    Today the LRA consists of only a few hundred people, most 
likely. But it continues to inflict a level of pain and 
suffering far greater than its actual size.
    And for many of us, Kony is no stranger. Two years ago, we 
passed legislation to provide support to regional governments 
working to protect their people and to apprehend him and his 
top commanders, and to remove them from the battlefield.
    Senator Isakson and I both cosponsored that bill. And 
today, there are 100 U.S. military advisers in Central Africa 
to aid the counter-LRA efforts in that region.
    I'm also pleased to announce that, joined by Senators Coons 
and Isakson, as well as Senators Boozman and Landrieu, I'm 
going to be introducing legislation to strengthen our hand in 
the fight against war criminals like Kony by expanding the 
State Department's rewards program, so that there's a greater 
incentive and greater capacity to go after these folks.
    And we will take up this issue more a little later in the 
committee, but I wanted to take advantage of Senator Isakson's 
journey. We're very grateful to him for taking the time to do 
that.
    And I wonder, Senator Isakson, if you would mind sharing 
some of your takeaways from your trip to Uganda and the problem 
of Joseph Kony.
    And perhaps, Senator Coons, both you and Secretary Carson 
would just take a moment to do an overview here, very quickly, 
while we're all present, of this issue.
    Senator.
    Senator Isakson. I thank you, Mr. Chairman and Chairman 
Coons.
    Senator Inhofe asked to be recognized for a quick 
statement, if that is OK with the chairman, because he has to 
leave for Armed Services.
    Senator Inhofe. Thank you.
    And, Mr. Chairman, we have an Armed Services Committee 
hearing. It happens that I'm the ranking member, and my 
attendance is required.
    However, I just returned yesterday from my 123rd African 
country visit in 15 years, and I'm very interested in what is 
going on here. I have some thoughts that are not consistent 
with the administration on some of the things we've been doing 
in conjunction with Africa. So I am going to be coming back.
    My first exposure to the LRA and Joseph Kony took place in 
Gulu in 2005, so now it's become a household word, and I'm very 
thankful for that.
    So I will excuse myself, but I will be coming back.
    Senator Coons. Thank you.
    Senator Isakson. Thank you for your courtesy, Mr. Chairman. 
I appreciate the opportunity to give a brief statement 
regarding our trip to Kampala and to Gulu, as a matter fact, 
and to Uganda.
    As most everybody knows, the attention on Joseph Kony was 
heightened when the Invisible Children organization did a 30-
minute video that went viral and has now been seen over 100 
million times on the Internet.
    A lot of the information in it was correct. Some of it was 
incorrect. But the most important thing: It focused on Joseph 
Kony, who is a very bad individual by anybody's judgment.
    Joseph Kony started in Uganda, but he is no longer there, 
and he's been gone, really, for 5 to 6 years.
    Gulu, which was a strife-torn area with a number of 
individually displaced individuals because of Joseph Kony, is 
now relatively prosperous. It is crime and violence free, and 
we spent a full day in Gulu. And the people there on the border 
with the Congo are very happy and very appreciative that Joseph 
Kony is gone.
    We met with the leaders of the 100-man group that is now in 
Uganda, the Democratic Republic of the Congo, the Central 
African Republic, and with South Sudan, and I'm pleased to 
report on what our individual leaders are doing there.
    I might also add, President Obama deployed those people 
before the Joseph Kony video went on the Internet, and we have 
been focusing, as Senator Kerry said, for the last 2 years on 
Joseph Kony.
    But our advisers and forward people in Uganda and the 
Democratic Republic of the Congo and Central African Republic 
have a lot of information regarding Mr. Kony that we did not 
have before. And although we don't know exactly where he is, we 
know a lot better about the area where he is than we have ever 
known before.
    We are beginning to gain certain intelligence. There are 
some things I'm not at liberty to say, because of the security 
of the briefing, or the insecurity of this briefing and the 
security of the one that I had.
    But suffice it to say that one of the most successful 
things the American forces have done is deploy leaflets in the 
villages near where some of his followers are, offering amnesty 
if his people will come back and bring information leading 
toward the capture or the location of Mr. Kony, which has 
caused a separation of Mr. Kony from a number of his 
supporters, which are thought to be, as the chairman said, 
about 200 now.
    Most of them are thought to be in the South Sudan or the 
Congo. He is thought to be in the Central African Republic.
    There have been some instances of violence recently that 
have been attributed to the Lord's Resistance Army, which may 
or may not, in fact, have been copycats and not really the 
Lord's Resistance Army.
    But there's no question Joseph Kony is still alive, and 
there's no question that he's still a threat.
    We need to recognize that in 26 years, he's abducted 66,000 
children, displaced 2 million Africans, and killed tens of 
thousands of Africans in the name of the Lord's Resistance 
Army. He is a very, very bad actor by anybody's definition.
    And I'm proud that our country is assisting the African 
Union, the U.N., the troops from Uganda, and the Central 
African Republic, and the South Sudan, all of whom are focused 
on capturing Joseph Kony, who has been indicted by the 
International Criminal Court for crimes against humanity.
    So, Mr. Chairman, you would be very proud of the American 
personnel that are in Uganda and in Africa now, working on the 
hunt for Joseph Kony. We have a number of assets that have been 
deployed from an intelligence access standpoint, which are 
beginning to be very, very helpful.
    And it's becoming popular to leave Joseph Kony now and come 
back, rather than join up with him, which is going to limit the 
ability for him to grow his forces in the future.
    So I want to pay a particular tribute, though, to the 
nation of Uganda. Their leadership has been exemplary in 
providing military troops and assistance to the countries in 
Central Africa in search of Joseph Kony, and point out that 
that government has done everything it could to bring back 
peace and prosperity in the north.
    We traveled the road that they built to connect Gulu back 
to Kampala and the main heart of Uganda, and met with the 
people in the villages in Gulu and the surrounding areas, all 
of whom were peaceful, all of whom were happy, and, in a 
relative term, prosperous.
    So my report is that Joseph Kony is alive. We're closer to 
coming to Joseph Kony than we probably have ever been, although 
we don't have him yet. But there are a number of forces at work 
there to do so. And as we gain intelligence and as we gain 
those who defect and come back because of the amnesty program, 
it's highly likely that his days are numbered in terms of being 
missing. And that will be a good day for Africa and a good day 
for mankind.
    Senator Coons. Thank you very much, Senator Isakson, for 
that update, for your leadership on this issue, for your 
personal commitment and engagement. As I've seen in our time 
together on the subcommittee, your passion for justice and 
progress in Africa is exemplary and is one of the best things 
I've had a chance to support and contribute to in my time here 
in the Senate.
    And I just want to thank the chairman for ensuring this is 
a top priority for the committee, for his leadership in 
introducing legislation that will amend the justice awards 
program to add another sort of tool in the toolkit as we try to 
make sure that Joseph Kony is, in fact, removed from the 
battlefield, captured, and taken before the International 
Criminal Court.
    Yes, Senator.
    Senator Isakson. I'm glad that you said that. I wanted to 
tell the chairman that I specifically asked the briefers from 
the Americans that are deployed there if the reward program 
would be of help to them, and they said absolutely. They were 
very enthusiastic that the chairman was poised to introduce 
that legislation. I think the same legislation is being 
introduced in the House.
    And they think because of the defections that they're 
getting and the fact that they think the noose is beginning to 
tighten, they think it will be extremely helpful in their 
search for Joseph Kony.
    Senator Coons. I'm eager to move to hearing from our 
witnesses on this topic, and then to get to the entrenched 
leaders point.
    Let me just say, if I could, tomorrow at 11:45 in the TV 
and Radio Gallery, we're going to be releasing a video that all 
of us appear in that just summarizes the response from the 
United States, the resolution that Chairman Kerry referred to, 
that Senator Inhofe and Senator Isakson and I are on that has 
41 cosponsors that just demonstrates there remains a broad, 
bipartisan consensus in the Senate in support of the 
administration's action to deploy these 100 U.S. Special Forces 
troops; that commends our partners and our allies in the 
African Union and in the regional militaries that are working 
so hard to make sure that Joseph Kony is found and brought to 
justice; and then to continue to support USAID's efforts for 
recovery and reconciliation, and for restoration of those 
communities like Gulu that have suffered for so long from the 
predation of the Lord's Resistance Army.
    This Friday is the Kony 2012 movement day of action, and 
it's our hope after these events next Tuesday to be back 
looking in more detail with some input from the Department of 
Defense, Department of State, USAID, on the path forward in the 
hunt for Kony and then to see how we can be supportive going 
forward.
    So with that, if I might, let me just ask Assistant 
Secretary of State Johnnie Carson or Assistant Administrator of 
USAID for Africa Earl Gast, if you have any comments for us at 
this point on our efforts and our investments in this 
particular matter.
    Ambassador Carson. Thank you very much.
    Let me say, first of all, I am extremely pleased to be 
here, Chairman Kerry, Chairman Coons, Ranking Member Isakson, 
to talk not only about entrenched African leaders, but also the 
issue of Joseph Kony and the LRA.
    I want to thank all of you personally and professionally 
for your deep commitment in support of a broader international 
effort to bring Joseph Kony and the members of the LRA to 
justice.
    As Senator Isakson has pointed out, for far too long, 
Joseph Kony and his organization have gone through Central 
Africa killing, pillaging, raping, and destroying the lives of 
hundreds of thousands of Africans in Uganda, the Congo, Central 
African Republic, and now Southern Sudan.
    The administration is totally committed to doing everything 
that it can in partnership with the regional African states and 
with the AU and the U.N. to bring Joseph Kony and the remnants 
of his organization to justice.
    Joseph Kony's organization has some 150 to 250 members 
dispersed, we believe, between some four or five different 
groups, operating largely in the Central African Republic, but 
also still in Southern Sudan and the northern parts of the 
Democratic Republic of the Congo.
    As Senator Isakson pointed out, they have not been active 
in Uganda since 2006. The Ugandan Government is to be applauded 
for taking the leadership in continuing to go after Joseph 
Kony, although he is no longer operating there. Their forces 
have led the way in trying to bring this man to justice. We are 
supporting that effort.
    The United States Government has been a strong supporter of 
the Ugandan Government in this effort for the last 3\1/2\ 
years. And last year, we supplemented our effort by sending 
approximately 100 U.S. military to advise the national 
militaries in the region that are pursuing the LRA and working 
to protect the local populations.
    Those 100 advisers are there to help do four essential 
tasks. The first is to help improve civilian protection in all 
of the areas where Kony is operating; to enhance regional 
coordination between the militaries of the four countries; to 
strengthen the integration of information and intelligence into 
operations, so that information and intelligence received is 
passed on to soldiers in the field in a more rapid and more 
efficient and more useful fashion; and finally, to help 
directly in trying to capture and to bring Kony to justice.
    We have done all of these things under the civilian 
protection umbrella. We have, along with our colleagues in 
USAID and also with a number of NGOs, sought to provide radios 
and UHF radios and cell phones to a number of communities in 
the Democratic Republic of the Congo, and also in the Central 
African Republic, so that if indeed villagers see and hear 
things that might suggest that Kony is in the vicinity or his 
people are in the vicinity, they can call back or radio back to 
government offices in order to get support to come after Kony 
and to protect them.
    We have also worked very hard to effectively bring about 
better coordination between the regional militaries, and we 
have stepped up our training, particularly with respect to the 
DRC.
    In the DRC, the U.S. Government under AFRICOM was 
responsible for training one battalion, the 391st Battalion, 
which is operating up in the northeastern corner of the DRC, in 
the Garamba Forest, focused mainly on going after the Lord's 
Resistance Army and Joseph Kony.
    We are advising the forces in the Central African Republic, 
and also in South Sudan.
    In support of our efforts to help strengthen the 
integration of intelligence and information into operations, we 
have deployed certain intelligence assets to the region, and we 
are in the process of stepping up those assets.
    We appreciate enormously the support of the Congress on 
this. As you all know, the Congress authorized some $35 million 
under the Defense authorization bill to help support operations 
of the U.S. military and our diplomatic efforts in the region. 
We believe this is extraordinarily useful.
    We have, over the last several years, spent approximately 
$30 to $40 million each year to help the governments and 
militaries in the region. And this additional support, which 
will be coming out of the DOD budget, helps to supplement 
funding that we have been using from State funds.
    We have clearly helped to degrade the LRA, to disperse it, 
but we have not finished the mission of decapitating it. We 
hope that we will be able to continue to work closely with the 
countries in the region to bring Joseph Kony to justice and 
finish this project.
    Thank you.
    Senator Coons. Thank you very much, Assistant Secretary 
Carson. We look forward to next Tuesday's hearing, where we 
will go into more detail and receive more updates and briefings 
from AID, the Department of Defense, the Department of State.
    I think it's important that we now turn to our main focus 
today, which is U.S. policy options in response to entrenched 
African leadership, and some of the themes we just touched on, 
the role of the International Criminal Court, the role of 
rewards for behavior, for changes in leadership, will also come 
up in the broader context of this hearing.
    Specifically, for the rest of this hearing, we're going to 
focus on the United States response and the African response to 
leaders who stayed in power for decades, whether through the 
manipulation of constitutions, institutions of governance, or 
through other means.
    This all too common scenario around the world in sub-
Saharan Africa has challenged the objectives that the United 
States and many African nations share--objectives and values 
centered on the promotion of democracy, transparency, and the 
rule of law.
    Entrenched African leaders contribute to corruption, to 
economic stagnation, to a lack of accountability, and an 
inability of government to effectively represent and respond to 
the needs of people, and threatens to hamper the enormous 
potential of sub-Saharan Africa, and must, therefore, I think, 
be addressed and ultimately reversed.
    I'm pleased that among the policy aims of the United States 
in Africa is strengthening democracy and the systems of 
governance throughout the world. I'm also pleased that there 
are clear signs our efforts have helped to reinforce African-
led efforts to ensure good governance, encourage the rule of 
law, and strengthen civil society.
    At the same time, the promotion of democracy and governance 
is one of many competing U.S. policy objectives, demonstrated 
by the fact that approximately three-quarters of all U.S. 
foreign aid for sub-Saharan Africa is directed toward health 
and humanitarian programs.
    While allocations of aid for democracy promotion in Africa 
have increased under the Obama administration, I am concerned 
that such resources in the total package of U.S. engagement 
remain relatively small.
    In responding to entrenched leaders, the United States 
frequently finds itself constrained by other priorities as 
well, and challenged in our efforts to effectively influence 
the longserving Presidents who cling to power.
    I understand and deeply value the importance of security 
and health as competing priorities, but believe democracy 
promotion must continue to be a central priority for the United 
States, the international community, and, most importantly, 
African nations and leaders.
    At today's hearing, we will consider a range of examples 
throughout sub-Saharan Africa of the political dominance of a 
single party or figure.
    Equatorial Guinea's President recently replaced Qadhafi of 
Libya as the continent's longest serving at 33 years. The 
Presidents of Angola, Zimbabwe, and Cameroon have all been in 
power for 30 years or more. Close behind, the leaders of the 
Uganda, Swaziland, Burkina Faso, Sudan, Chad--between 20 and 25 
years.
    I was deeply concerned when President Biya of Cameroon 
recently changed the constitution of his nation to eliminate 
term limits, which paved the way for him to begin his 30th year 
in power.
    Key countries of strategic interest--Ethiopia, Sudan, 
Uganda--are governed by leaders who have been in power for many 
years, without allowing the emergence of effective opposition 
or demonstrating any signs of stepping down.
    Frankly, there is also a sad correlation between those 
countries that have entrenched leaders and those countries that 
rank at the bottom of human development indexes and political 
participation.
    According to the Mo Ibrahim Foundation, which compiles the 
index on African governance, the ranking of political 
participation closely correlates with the index of human 
development.
    Unfortunately, the list of countries we can talk about 
today goes on. I'd be remiss if I failed to mention the recent 
coups in Mali and Guinea-Bissau. These events are deeply 
troubling.
    But there are also positive results to be seen there in the 
strength and the leadership of a regional multilateral 
institution, in this case, ECOWAS, the Economic Community of 
West African States, which took prompt and effective action, 
ranging from denouncing the coups, to sanctions, to diplomatic 
action.
    Political entrenchment is first and foremost a threat to 
the African people, and addressing it must be led by Africans 
and African nations. But I hope the United States and 
international community will continue to work with regional 
organizations, such as ECOWAS, to support free and fair 
elections.
    To tackle this complex issue, we have two extremely 
distinguished panels. On our first panel, as I've already 
mentioned, Assistant Ambassador Johnnie Carson, and Earl Gast, 
the newly confirmed Assistant Administrator for Africa USAID, 
who testifies before the subcommittee for the first time in his 
current role.
    On the second panel, we're privileged to have Dr. 
Christopher Fomunyoh, a senior associate regional director of 
the National Democratic Institute, and Dr. Mo Ibrahim, founder 
and chairman of the board of the Mo Ibrahim Foundation.
    Dr. Fomunyoh is originally from Cameroon and has a played a 
critical role in formulating and directing NDI's valuable work 
in Africa.
    And I want to especially recognize and thank Dr. Ibrahim 
for traveling today from London to be with us. He has led a 
foundation which awards good governance and leadership in 
Africa with an annual cash prize of $5 million to 
democratically elected leaders who demonstrate excellence in 
office and peacefully step down. Of equal value is the Ibrahim 
Index of African Governance, a great resource for all who try 
to press for responsible transitions on the African continent.
    With that, I turn it over to Senator Isakson for his 
opening comments.
    Senator.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman, I will be 
brief. But I will begin by complimenting the chairman who took 
the leadership role on the Senegal issue and advised President 
Wade of the desire for the voters to speak and their vote to be 
respected. And the elections in Senegal were decisive and they 
were free, and President Wade did the right thing.
    And I think the chairman deserves a lot of credit for 
initiating that letter.
    I think it's also important to recognize that entrenched 
leadership is not a problem that is unique to Africa. We had an 
incident in North Korea just last week that reminded us of what 
family leadership over decades can mean to an impoverished 
group of people. So Africa is not unique in that regard.
    Also, it's important to point out there are leaders on the 
continent, like Commissioner Jega in Nigeria, who led the first 
free, relatively violence free, and satisfactory democratic 
elections in the history of Nigeria when Goodluck Jonathan was 
elected, and I hope Commissioner Jega stays in business long 
enough to help some of the other African countries make that 
transition.
    With that said, though, entrenched leadership is an issue 
that we should focus on, and promoting democratic institutions 
in African countries is a main part of the mission of the 
Department of State.
    And I appreciate the leadership that Secretary Clinton and 
Johnnie Carson both give that issue on the continent.
    And while we have a lot of entrenched leaders, we have a 
lot of rays of sunshine and light.
    And last, as always the case, you can't categorically put 
everybody in one barrel, because there are exceptions. And we 
have seen exceptions where entrenched leaders have turned and 
done the right thing and helped countries make the transition. 
So we need to recognize that our encouragement for democratic 
institutions, our awareness of the importance for the voters to 
determine their leadership, are the critical institutions and 
instruments of democracy that make our country great, and we 
think will make the countries of Africa great as well.
    So, Mr. Chairman, congratulations on your effects on 
Senegal, and thank you for calling this hearing today.
    Senator Coons. Thank you so much, Senator Isakson.
    I'd like to invite Ambassador Carson to give his opening 
statement at this point.

STATEMENT OF HON. JOHNNIE CARSON, ASSISTANT SECRETARY OF STATE 
 FOR AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Carson. Chairman Coons, thank you very much. And 
also Ranking Member Isakson, thank you very much for those very 
helpful and useful comments.
    Let me start off by making some initial comments on the 
state of democracy in Africa, and then turn, briefly, to the 
cases of Senegal and also the Cameroon.
    I have submitted longer testimony, and I'm certainly 
prepared to discuss any of the questions or any of the--take 
your questions and discuss any of the countries that directly 
concern you.
    Democracy is on the move in Africa. The democratic 
trajectory is positive and getting stronger. Over the last 2 
years, we've seen a number of African countries hold successful 
democratic elections, large countries such as Nigeria and 
Senegal and Cote d'Ivoire, as well as smaller countries like 
Zambia, Niger, and Guinea-Conakry.
    In the elections that have taken place, we have seen 
sitting Presidents removed peacefully from power by the ballot 
box, as in the case of Senegal and Zambia. We have seen 
governments move from military to civilian rule, and the 
Presidents succeed themselves in fair, transparent, and 
peaceful elections in some other cases.
    Opinion polls conducted by respected African and United 
States organizations demonstrate that African support for 
democracy, as well as the freedoms and opportunities associated 
with it, are strong.
    As a result, every African leader, whether authoritarian or 
democratic, feels the need to profess their support for 
democracy.
    Despite the positive trajectory that I have described, we 
know that democratic progress is rarely smooth, linear, or 
direct. Setbacks occur and are inevitable.
    The recent military interventions in Mali and Guinea-Bissau 
reflect the problems that persist in Africa, where democratic 
institutions are weak and economic deprivation and 
impoverishment remain high.
    We also recognize that there could be other democratic 
backsliding in the future. But I remain optimistic that 
democracy is moving forward in Africa.
    As democracy continues to take root, a number of African 
leaders have managed to remain in power for long periods of 
time. Presidents Mugabe, Biya, al-Bashir, Dos Santos, Museveni, 
and Prime Minister Meles have all been in power for over two 
decades. Although they were all elected and reelected in 
multiparty contests, they have also manipulated or 
intentionally altered the political systems in their countries 
to ensure their political longevity. Presidents Museveni and 
Biya, in particular, have removed term limitations to stay in 
power.
    Some political leaders have also sought to transfer power 
to their children.
    We believe term limitations serve a valuable and useful 
purpose. They spur political mobility, help generate new ideas, 
break down political dynasties, and enhance accountability and 
good governance. They also prevent political rigidity and the 
monopolization of power by one person, or one family from one 
region, or from one ethnic group, from dominating the affairs 
of state, not only for a decade but for two or three.
    We have opposed third terms, but have generally reacted 
differently to them based on the country and the circumstances. 
Senegal and Cameroon are cases in point. We made our views 
clear on term limits most recently in Senegal when President 
Wade changed the constitution and sought a third term. We were 
deeply concerned that President Wade would throw his country 
into a constitutional or a political crisis by seeking a 
questionable constitutionally mandated third term, which he 
initially said he would not serve and which some of the 
country's most distinguished lawyers said was probably not 
legal.
    We acted because we were afraid that Wade's candidacy and 
victory might lead to widening violence and instability. 
Although the advocacy efforts were ultimately unsuccessful, 
this focused international attention on the conduct and outcome 
of a critical election.
    Ultimately, the Senegalese voters rejected Wade's bid at 
the ballot box and demonstrated unequivocally that strongmen 
are trumped by an engaged electorate and an active civil 
society with strong democratic institutions.
    Former President Wade's third-term bid is an example of a 
troubling countertrend. In the last 9 years, eight sub-Saharan 
countries have repealed the two-term limits on the Presidency. 
Those countries are Chad, Gabon, Burkina Faso, Togo, Cameroon, 
Guinea, Niger, and the Uganda. And the Presidents in other 
countries, including Malawi, Nigeria, and Zambia, tried 
unsuccessfully to repeal term limits.
    The repeal of term limits raised questions about process as 
well as outcome. Self-interested governments proposed changes 
which benefited sitting Presidents who then used their control 
of the state to assure their reelections. The resulting 
elections are often meaningless, pro forma exercises that only 
serve to legitimize the longstanding status quo.
    Such leaders have embraced the language of democracy, but 
not its full meaning. In fact, some African governments lack 
the will to conduct free and fair elections in which the 
leaders know they might lose political or economic power.
    Senegal's civic and religious institutions proved to be a 
major positive force. Civic leaders and NGOs repeatedly assured 
us of their intent to support principles of good governance and 
to encourage their members to participate actively and 
peacefully in the political process. The majority of religious 
leaders remained impartial or nonpartisan, and made the 
greatest contribution to a successful process.
    Senegal has, thus, retained its democratic credentials and 
remains one of Africa's most respected democratic nations.
    With the eyes of the entire continent watching, the 
Senegalese demonstrated that an engaged electorate and active 
civil society can always trump strongmen.
    Cameroon also presents a challenge to democracy in Africa. 
While that country abounds with potential from natural 
resources and its geographic location, Cameroon's political 
leaders have taken advantage of their country's relative 
stability, prosperity, and system of patronage to entrench 
their leadership.
    The absence of transparency in the political and economic 
activities of the country have allowed the country to grow 
economically slower than it should have. It has also increased 
corruption and cynicism among the opposition, and many of the 
country's people.
    These policies have placed a premium on maintaining the 
status quo in lieu of embarking on reform.
    The 2011 Presidential election was seriously flawed. 
Polling stations opened late. Citizens were allowed to vote, in 
some cases, multiple times. And ballot box stuffing and voter 
intimidation were observed in various parts of the country.
    Even though the Cameroonian Supreme Court received credible 
complaints of irregularities from political parties, the court 
dismissed all the cases.
    Given Cameroon's political history, the United States has 
focused its policy on finding ways to influence the Cameroonian 
Government to adopt political reforms.
    We made our views clear early on the 2008 constitutional 
revisions that ended term limits by going in and asking 
President Biya not to do so. In 2009 we met with government, 
civil society, and opposition parties, and then worked with 
other diplomatic missions to boycott the swearing-in of the 
stacked electoral commission, simultaneously issuing a 
statement expressing our displeasure with its composition.
    In 2011, we financed and launched two ongoing civil society 
strengthening programs, one of which led to the creation of the 
Civil Society Forum for Democracy, which has become one of 
Cameroon's leading democracy advocacy organizations.
    We also worked with youth and women to encourage 
participation in politics and to get out the vote.
    I visited Cameroon in June 2011, and met with President 
Paul Biya to urge a transparent and free electoral process. In 
July 2011, Cameroon added six civil society and opposition 
members to its electoral commission and expanded 
enfranchisement to overseas Cameroonians.
    In October 2011, our Ambassador gave a strong speech, 
identifying lessons learned from the election and ways to bring 
about improvement.
    Following the conclusion of the elections, I wrote to 
President Biya, urging the reestablishment as soon as possible 
of term limits, the implementation of constitutional reforms, 
and a more transparent and independent electoral commission.
    We acted differently in Cameroon because the threat of 
violence and widespread stability were not as great or serious 
as they appeared to be in Senegal on the eve of the 
Presidential elections there.
    We also thought we should focus on empowering civil society 
and strengthening it, and encouraging President Biya to think 
of his legacy and to reverse his decision on term limitations.
    This year, we have worked with other diplomatic missions in 
Yaounde and sent a joint letter to the Prime Minister, 
suggesting possible improvements in the electoral process.
    Following our public and private comments, the government 
announced its decision to create a new voter roll based on a 
biometric voter card system, and to harmonize the election laws 
into a new single electoral code.
    I have laid out our concerns again to President Biya about 
the need for further democratic change. We hope that he will 
heed those concerns, looking toward his own legacy and the need 
to be able to ensure that Cameroon's democratic institutions 
are more important than the interests of one single individual.
    Although there is more work to do in Cameroon, we are 
seeing signs of a revitalized civil society, increasingly 
energized political debate, and, ultimately, more government 
engagement about how the country can deepen its commitment to 
reform and chart out a more democratic future.
    Overall, I remain upbeat about trends in democracy across 
Africa, where I can send you to see progress and note the 
positive steps taken to address the bad news in Mali and 
Guinea-Bissau, with African countries unanimously demanding a 
return to civilian democratic rule immediately in both of those 
countries.
    These stories are reminders that democracy is a dominant 
trend, although we can expect setbacks from time to time.
    The overarching African policy of the Obama administration 
is to promote the development of stable and democratic partners 
committed to the rule of law, human rights, transparent 
governance, and the welfare of their citizens.
    We believe that the long-term strategy of supporting 
democratic institutions is already paying off. As a result, we 
are continuing to prioritize our democratic funding, not only 
to assist in elections, but also to help strengthen governance, 
the rule of law, the promotion of women and civil societies, 
and also strengthening legislatures and judiciaries.
    I will stop right here, Mr. Chairman, and will take any 
questions that you have.
    [The prepared statement of Ambassador Carson follows:]

        Prepared Statement of Assistant Secretary Johnnie Carson

    Chairman Coons, Ranking Member Isakson and members of the 
committee, I welcome the opportunity to appear before you today at this 
hearing: ``Examining the U.S Policy Responses to Entrenched African 
Leadership.''
    Overall, I remain upbeat about trends in Africa, where I continue 
to see progress and note the recent good news coming out of Senegal and 
Malawi. Also I note the positive steps taken to address the bad news in 
Mali and in Guinea Bissau, with African countries unanimously demanding 
a return to civilian rule. All of these events are reminders that while 
progress in institutionalizing democracy is not always smooth and 
linear; democratization is the dominant trend around the continent.
    As you are aware, Mr. Chairman, this administration is committed to 
a positive and forward-looking policy in Africa. Indeed, we believe in 
Africa's potential and promise. While Africa has some very serious and 
well-known challenges, President Obama, Secretary Clinton, and I are 
confident that Africa and Africans will meet and overcome these 
challenges.
    In order to underscore the importance that this administration 
attaches to democracy, good governance and accountability, President 
Obama chose to make his inaugural Africa trip to Ghana. His speech in 
Accra applauded the efforts of Ghanaians to institutionalize democracy, 
noting that `` . . . In the 21st century, capable, reliable, and 
transparent institutions are the key to success--strong Parliaments; 
honest police forces; independent judges; an independent press; a 
vibrant private sector; a civil society. Those are the things that give 
life to democracy, because that is what matters in people's everyday 
lives. Now, make no mistake: History is on the side of these brave 
Africans, not with those who use coups or change constitutions to stay 
in power. Africa doesn't need strongmen, it needs strong 
institutions.''
    In fact, our overarching Africa policy goal is to nurture the 
development of stable and democratic partners who are committed to the 
rule of law, human rights, transparent governance, and the welfare of 
their citizens. We believe that the long-term strategy of supporting, 
strengthening and sustaining democratic institutions is already paying 
off. As a result, we plan to continue to prioritize funding for 
democracy programs which reinforce good governance and the rule of law, 
and promote participation of women and civil society.
    We will also continue to work with the international community, 
including the Africa Union and African subregional organizations such 
as the Economic Community for West African States (ECOWAS), the East 
African Community (EAC) and the Southern African Development Community 
(SADC) and others to strengthen democratic institutions and build upon 
the democratic gains made in recent years. We will continue to use 
every diplomatic tool at our disposal to nurture long-term progress.

                               CHALLENGES

    This brings us to the challenges at the heart of today's hearing. 
Africa has been making steady progress since the ``democratic third 
wave'' in the early 1990s. That progress continues today driven by the 
rising expectations of a younger generation which is fueling greater 
demands for economic and political change. More than 40 percent of the 
people living in Africa are under the age of 15 and nearly two-thirds 
are under 30. This new generation is increasingly urbanized, well 
educated, plugged into the Internet and demanding greater transparency 
and democratic accountability from their leaders.
    There exists a tension between the old and the new in sub-Saharan 
Africa today, where there are 11 leaders who have been in power for 15 
years or more; and of those, 9 who have been in power for more than two 
decades. Some of these leaders emerged during their countries' 
independence movements or times of armed conflict and see themselves as 
indispensable to their country's future. Indeed, some of these leaders 
see themselves as the embodiment of the state.
    This dated desire to hold on to power conflicts with one of the 
most positive political trends in Africa over the last 20 years: the 
adoption of Presidential term limits. Twenty-three African countries 
limit Presidents to two terms in office. The introduction of terms 
limits has helped level the playing field and invigorated real 
political competition leading to opposition parties' power in a dozen 
countries.
    The United States continues to encourage countries in Africa and 
elsewhere to respect executive term limits. Term limits encourage the 
development of new leadership and institutionalize a democratic process 
and permit new ideas and policies to move forward. When democracy is 
threatened by strongmen trying to maintain their grip on power, we are 
not shy about making our views clear on the importance of term limits 
as you saw, most recently in Senegal, when President Wade sought a 
third term.
    We were deeply concerned that President Wade would throw his 
country into a constitutional or political crisis by seeking a 
constitutionally questionable third term, which he initially said he 
would not serve and which some of the country's most distinguished 
lawyers said was probably not legal. Although the advocacy efforts were 
ultimately unsuccessful, this did focus international attention on the 
conduct and outcome of this critical election. Ultimately, the 
Senegalese voters rejected Wade's bid at the ballot box and 
demonstrated, unequivocally, that
strong men are trumped by an engaged electorate, an active civil 
society and strong institutions.
    Former President Wade's third term bid is emblematic of a troubling 
countertrend. In the last 9 years, the governments of seven sub-Saharan 
countries have repealed the two-term limits on the Presidency (Chad, 
Gabon, Togo, Cameroon, Guinea, Niger, and Uganda). Niger has since 
reinstated term limits. Presidents in other countries, including 
Malawi, Nigeria, and Zambia tried, albeit unsuccessfully, to repeal 
term limits.
    The repeal of term limits raises questions about process as well as 
outcome. Self-interested governments proposed changes which benefited 
sitting Presidents who then use their control of the state to assure 
their reelections. Weak judicial and legislative branches approve 
changes in the constitution giving the changes a veneer of legality. 
The resulting elections are often meaningless, pro forma exercises that 
only serve to legitimize the longstanding status quo, a phenomenon that 
the Electoral Institute for Southern Africa (EISA) calls ``electoral 
autocracy.'' Such leaders have embraced the language of democracy, but 
not its full meaning.
    To be blunt, some African governments lack the will to conduct free 
and fair elections in which they might lose political and economic 
power. Instead they rig the system by monopolizing the media, harassing 
opposition figures, and otherwise closing political space. On a 
continent where most political and economic power still resides in the 
State, elections are too often viewed as a zero-sum game in which all 
spoils go to the winner.

                              CONSEQUENCES

    Electoral autocracy has numerous negative consequences, captured in 
the data in international reports and studies compiled by Freedom 
House, the Mo Ibrahim Index, Transparency International, and the World 
Bank, among others. Most reveal a variety of problems including 
corruption, a lack of accountability, crony capitalism, and nepotism. 
These elements feed a rent-seeking class of well-connected elites who 
maintain a stranglehold on local economies. This behavior crowds out 
legitimate local entrepreneurs and fuels large disparities in income 
and opportunity. This can breed anger, resentment, and even violence, 
as we have seen in the countries impacted by the Arab Spring.

                         STRATEGIES FOR CHANGE

    The political and economic success of Africa depends a great deal 
on the effectiveness, sustainability, and reliability of its democratic 
institutions. That means a focus on process and progress, not 
personalities. African leaders must recognize that the United States is 
engaged in building long-term ties with their people and not just with 
them. Credible, strong, and independent institutions are the key to 
both a deeper relationship with the United States and to their long-
term success.
    We will continue to support efforts to strengthen democratic 
institutions and participation, including in countries with entrenched 
leadership. Specifically, we will focus on supporting good governance, 
strengthening Parliaments, and increasing the efficiency of judicial 
systems, and we will continue to provide assistance to encourage civic 
participation, so that young people get involved, and to fund concrete 
solutions to corruption such as forensic accounting to advance 
transparency and accountability. We believe economic development 
programs help build democratic institutions as well, because an 
empowered citizenry is the foundation of every strong democracy.
    Our Africa policy is built on anticipating that change is 
inevitable and that it can best be channeled through constructive 
action rather than destructive reaction. We have the same value-based 
discussions with all African leaders, during which we highlight our 
views about the importance of building strong democratic institutions, 
good governance, accountability and the role of civil society. Clearly 
there are countries where governments are more receptive and, indeed, 
responsive to that message. But that message is a consistent part of 
policy and outreach in all African countries.
    In order to enhance the effectiveness of our policy, we have a 
number of tools at our disposal. Our best tools are generally positive 
and often rest on trying to convince leaders that strengthening core 
democratic institutions are in the long-term interest of the country 
and could be an important part of their historical legacies.
    When the situation warrants it we can use public criticism, and 
more punitive measures such as diplomatic isolation, financial and 
diplomatic sanctions including travel bans. We have used sanctions with 
limited success on entrenched leaders in Sudan, Eritrea, and Zimbabwe. 
The results, frankly speaking, indicate that sanctions are not 
necessarily a silver bullet, but they do send an important message.
    In our increasingly multilateral world new tools are emerging. But 
the most important voices supporting democracy are coming from 
Africans. This was evident, for example, recently when the African 
Union (AU) and ECOWAS strongly denounced the coup in Mali, sanctioned 
the military junta, and demanded an immediate return to civilian rule. 
ECOWAS was also quick to make a forthright statement denouncing the 
military takeover in Guinea-Bissau last week and demanding a return to 
democratic rule. We would like to build on this, for example by working 
with the AU in supporting implementation of the African Charter on 
Democracy, Elections and Governance.
    The use of these and other tools we have furthered the long-term 
efforts to build strong African institutions. This can happen even in 
countries with entrenched leaders. But this is a long-term strategy. 
Realistically, in some places, it may take years before we see results. 
Democratization is a process and lasting substantive change does not 
happen overnight; it is generational. There is no simple recipe for 
change and reform, but consistent direct exchange provides a solid 
foundation on which we can base our actions.
    The case studies of Senegal and Cameroon are indicative of these 
long-term challenges. Many of the strategies we just noted are those we 
pursued in both of these countries. In Senegal, our efforts contributed 
to a positive outcome. While we and the rest of the international 
community can take some of the credit, the Senegalese themselves 
bravely demonstrated their commitment to democracy. That commitment 
paid off. In the case of Cameroon, the hard work continues, but we are 
no less optimistic that our consistent efforts and those of the 
Cameroonians themselves will eventually pay off. Let me offer a few 
details of each case.

                              CASE STUDIES

Senegal
    Our two countries share a longstanding commitment to democracy, 
good governance, and economic development. There has been a historical 
pattern of peaceful transitions of power through the ballot box in 
Dakar. The Senegalese take great pride in preserving the democratic 
values of their country, as evident by the coalition of opposition and 
civil society groups that formed to protest ex-President Wade's 
proposed constitutional amendments to election rules (which the 
government withdrew). We repeatedly encouraged and applauded the 
Senegalese people for their enthusiasm, patience, and civic engagement 
in making the election process as smooth as possible.
    While we respected Senegal's political and legal processes, we were 
concerned that President Wade's insistence on running for a 
constitutionally questionable third term could precipitate a crisis 
that might spark civil unrest and unravel his achievements.
    Wade's insistence on running for a third term also set a poor 
example for the spirit of democracy and good governance in the region. 
Especially since the Millennium Challenge Corporation (MCC) Compact 
signing ceremony in September 2009, we have tried to make clear to 
President Wade that democracy is government ``by the people, of the 
people, and for the people,'' which includes the right and ability of 
citizens to choose, participate in, and lead their governments--not 
merely a game of elections and candidates. We encouraged President Wade 
to put the interest of Senegal above his own personal interest to 
solidify his stature as a respected elder statesman.
    Senegal's civic and religious institutions proved to be a major 
positive force. We repeatedly met religious and civic leaders and NGOs, 
who assured us of their intent to support principles of good 
governance, and to encourage their membership to participate actively 
but peacefully in the political process. The role of the overwhelming 
majority of religious leaders in remaining impartial or nonpartisan 
arguably made the greatest contribution to a successful process.
    With a long history in international peacekeeping and participation 
in the international coalition for ``Operation Desert Storm'' in the 
early 1990s, Senegal's security services are among the most 
professional in Africa. State and DOD engaged them often, and they 
guaranteed they would maintain their unquestioned reputation for 
abiding by civilian authority and the rule of law. We congratulate them 
for their professional conduct.
    It was important that the USG collaborated with the international 
community in presenting a united front, particularly on election 
observation. Former Nigerian President Obasanjo led 200 observers from 
the African Union (AU) and the Economic Community of West African 
States (ECOWAS). The European Union (EU) deployed over 120 observers. 
We allocated $850,000 in funding in FY 2011 to train and support 1,400 
independent election observers, deployed through nonpartisan Senegalese 
organizations.
    Also, the Bureau of Conflict and Stabilization worked with the 
Africa Bureau and U.S. Embassy Dakar to develop an elections 
observation plan for both rounds of voting, analysis of the elections 
landscape, and planning around different contingencies for both rounds 
and potential outcomes.
    In the end, international observers and the Senegalese themselves 
judged the elections to be a credible expression of the will of the 
Senegalese people. Clearly this was a victory for Senegal, which has 
retained its democratic credentials and remains at the vanguard of 
democratic nations in Africa. Indeed, this may turn out to be a 
watershed moment in the history of democracy in Africa. With the eyes 
of the whole continent watching, the Senegalese demonstrated, 
unequivocally, that strong men are trumped by an engaged electorate, an 
active civil society and strong institutions.

Cameroon
    Originally a single party state, since 1990 Cameroon has had a 
multiparty system of government with over 250 political parties today. 
However, the Cameroon People's Democratic Movement (CPDM) has remained 
in power since it was created in 1985. On October 9, 2011, CPDM 
Chairman Paul Biya won reelection as president, a position he has held 
since 1982.
    With the largest economy in Central Africa and historically the 
subregion's most stable country, Cameroon presents a dilemma for U.S. 
engagement. On the one hand, it abounds with potential from its natural 
resources, geographic location, climatic diversity, and rich soil. On 
the other hand, its relative prosperity and system of patronage has 
resulted in an entrenched leadership, tight restrictions on the 
political space of opposition groups, and an absence in transparency in 
political and economic activities. These policies have placed a premium 
on maintaining the status quo in lieu of embarking on reform.
    Our engagement with Cameroon has made some progress. The National 
Assembly passed an antihuman trafficking law and the judiciary 
convicted several child traffickers. The government presented a penal 
code that improves the rights of women, children, and detainees. The 
Cameroonian military intervened to deter elephant poaching and maritime 
piracy. Cameroon voted alongside us and even cosponsored resolutions 
with us at the U.N. And, as I will detail shortly, President Biya has 
made some efforts to improve electoral processes.
    The 2011 Presidential election was flawed by irregularities, 
including the failure to properly distribute all voter cards, late 
opening of polling stations, multiple voting, ballot-box stuffing, the 
absence of indelible ink, and intimidation of voters. Citizens residing 
overseas registered and voted for the first time. After the election 
the Supreme Court received 20 complaints from political parties, 10 of 
which demanded either the partial or complete annulment of results due 
to irregularities. On October 19 the court dismissed all the cases for 
lack of evidence or late submission.
    Given Cameroon's political history, the USG has focused its policy 
on finding ways to influence the Cameroonian Government to adopt 
political reforms. We made our views on the 2008 Constitutional 
revisions, which led to elimination of term limits, clear both 
privately to President Biya and in public comments. In fact, on March 7 
and 8, 2008, then-Deputy Assistant Secretary of State for African 
Affairs, James Swan, visited Yaounde to convey our displeasure with the 
constitutional change and the handling of the political violence in a 
one-on-one meeting with President Biya.
    At our urging and in consultation with us, the European Union and 
several other foreign missions issued a public statement urging more 
inclusive public debate on the constitutional amendment.
    In 2009 we met with government, civil society, and opposition 
parties and then worked with other diplomatic missions to boycott the 
swearing-in of the stacked election commission (Elections Cameroon or 
ELECAM), simultaneously issuing a statement expressing our displeasure 
with its composition. In 2011 we financed and launched two ongoing 
civil society strengthening programs--one of which led to the creation 
of the Civil Society Forum for Democracy, which has become one of 
Cameroon's leading democracy advocacy organizations. We also worked 
with youth and women to encourage participation in politics and get out 
the vote.
    I visited Cameroon in June 2011, met with President Biya, Prime 
Minister Yang, other Ministers, opposition leaders, and civil society 
to urge a transparent election. In July 2011 Cameroon added six civil 
society and opposition members to ELECAM and gave Cameroonians residing 
abroad the right to vote. In October 2011 after extensive election 
observation and consultations, our Ambassador gave a strong speech 
identifying lessons learned from the election and ways to improve. I 
subsequently wrote to Biya urging the reestablishment of term limits, 
the implementation of stalled constitutional reforms and a more 
transparent and independent electoral commission.
    This year, we have worked with other diplomatic missions and sent a 
joint letter to the Prime Minister suggesting possible improvements in 
the electoral process. Following our Embassy's most recent public and 
private comments, the Government announced its decision to create a new 
voter roll based on biometric voter cards, addressing a problem that 
has plagued previous elections, and to harmonize the various election 
laws in a single new electoral code. I have laid out some of our 
concerns in a letter this month to President Biya, as Cameroon's 
National Assembly considers the revised electoral code.
    So although there is more work to do in Cameroon, and indeed the 
institutionalization of democracy is in its nascent stages, we are 
seeing signs of a revitalized civil society, increasingly energized 
political debate and ultimately more government engagement about how 
the country can deepen its commitment to reform and chart out a more 
democratic future.
    And with that, Mr. Chairman and members of the committee, I want to 
thank you for the opportunity to appear before you today. I will be 
happy to answer any questions.

    Senator Coons. Thank you very much, Ambassador Carson, both 
for your testimony and for your leadership regionally on these 
important issues.
    I would like to invite Assistant Administrator Gast to give 
his opening statement at this point.

  STATEMENT OF EARL GAST, ASSISTANT ADMINISTRATOR FOR AFRICA, 
   U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Gast. Thank you, Mr. Chairman. Thank you, Ranking 
Member Isakson.
    It's a deep honor for me to be here before you. This is my 
first hearing, as you mentioned, Mr. Chairman, as the Assistant 
Administrator for Africa, so it truly is an honor. And I'm also 
very pleased to be before this committee once again. I had 
previously served as Senior Deputy Administrator for Africa 
Bureau.
    While the Mugabes and Bashirs of the continent dominate our 
overall impression of Africa, in reality, entrenched leaders 
are becoming the exception rather than the rule.
    Witness Malawi's peaceful transition in power following the 
death of President Mutharika this month. Witness the process to 
restore democracy in Mali spurred by the swift and decisive 
leadership of ECOWAS. ECOWAS itself is led by the President of 
Cote d'Ivoire, another country to recently emerge from a crisis 
with a stronger democracy.
    When seen against the backdrop of Africa's history, these 
events underscore striking improvements in democratic 
governance, despite the setbacks that grab our attention.
    As recently as the early 1990s, the region was dominated by 
a group of so-called ``big men'' who used fear and intimidation 
to cling to power and in the process decimated their country's 
prospects for development.
    Today, these ``big men'' are being replaced by skilled 
civilian states-men and -women who are transforming their 
societies and serving as role models for a new generation of 
reformers.
    Increasingly, these leaders are looking out for their 
neighbors, as the events in Mali have demonstrated, and they 
are becoming partners in development.
    Given these trends, USAID's response to the challenge of 
entrenched African leadership is based on three factors that 
have led to successful transitions elsewhere in the world. 
First, we are nurturing citizens' growing demand for political 
change, an increasingly powerful influence in situations where 
democratic backsliding is a threat.
    As Assistant Secretary Carson mentioned, in Senegal, when 
President Wade's effort to influence the electoral process 
became apparent, civil society forcefully rejected his attempt. 
Its voice was the engine that drew attention to the situation, 
prevented widespread fraud, and directly resulted in the 
peaceful transfer of power.
    Second, political transitions have involved increased 
pluralism, the gradual replacement of one-party states with 
multiparty systems that represent a diverse range of interests. 
In countries like Ghana, Malawi, and Zambia, power alternates 
among parties on a fairly regular basis. Since today's ruling 
party may be tomorrow's opposition, voters have meaningful 
choices to make and are an instrument of accountability and 
civility.
    In Uganda, President Museveni has overseen the gradual 
reopening of political space and the reintroduction of 
political pluralism. But, in exchange, he has tightened his 
grip on the Presidency. However, each election increases the 
risk of unrest by delaying the inevitable transition to a new 
generation of political leaders.
    The third element that we deem crucial in political 
transitions is strong checks and balances. Those are checks and 
balances that establish and enforce the rules of the game.
    Under intense pressure from civil society and the media, 
African Parliaments and electoral commissions have played a key 
role in upholding term limits in Ghana, Nigeria, and Zambia. 
USAID has spent years building the capacity of those 
institutions in advance of the ``third term'' debates each 
country.
    The leadership in Ethiopia lacks these checks and balances, 
and has significantly constrained political speech, human 
rights, civil society, and the media. As a result, Ethiopia has 
created an environment that is ripe for instability. It has 
also created a paradox about its position in the international 
community.
    On the one hand, the U.S. Government must maintain a close 
working relationship with Ethiopia as one of our key African 
partners in fighting terrorism and promoting food security, and 
in providing peacekeepers to some of the most difficult 
locations on the continent.
    In fact, with the exception of democracy-building, USAID's 
programs in Ethiopia are among the most successful in Africa, 
helping lift millions out of poverty.
    On the other hand, there are long-term risks that come from 
suppressing basic freedoms. Ethiopia's elections in 2005 could 
have resulted in the balance of power, but instead the ruling 
party attempted to destroy the opposition, and has since 
clamped down on basic freedoms.
    Unless restrictions are lifted and dissenting political 
views allowed, the country's gains in development and poverty 
alleviation will be threatened.
    What we have learned is that developing the conditions for 
true democratic transformation is a process that takes many 
years, often decades. USAID helps to support environments in 
which these conditions can emerge, but that transformation can 
only occur through the commitment of African leaders to serve 
the needs of their people and other people to meaningfully 
participate in their government.
    Thank you again for inviting me here, and we look forward 
to your continued support of good governance in Africa.
    [The prepared statement of Mr. Gast follows:]

        Prepared Statement of Assistant Administrator Earl Gast

    Good afternoon Chairman Coons, Ranking Member Isakson, and members 
of the subcommittee. Thank you for inviting me to speak with you today. 
It is always an honor to have the opportunity to discuss USAID's work 
with you, and, for me personally, it is a pleasure to appear before you 
again.
    This is an especially thought-provoking issue for us to analyze 
today. While the Mugabes and Bashirs of the continent dominate our 
overall impression of Africa, in reality, these entrenched leaders are 
becoming the exception rather than the rule. Witness Malawi's peaceful, 
constitutional transition of power following the untimely death of the 
late President Mutharika earlier this month. Witness the process to 
restore democracy and unity in Mali, spurred by the swift and decisive 
leadership of the Economic Community of West African States. ECOWAS 
itself is led by the President of Cote d'Ivoire--another country that 
recently came out of a political crisis with a stronger democracy. The 
recently ratified African Charter on Democracy, Elections and 
Governance also creates a powerful, African-owned platform for 
consolidating democratic gains and encouraging sound leadership on the 
continent.
    When seen against the backdrop of sub-Saharan Africa's five decades 
of independence, these events underscore the striking improvements in 
democratic governance and leadership that have gradually occurred in 
the region despite the setbacks that grab our attention. A generation 
ago, the profile of Africa's leaders left much to be desired. As 
recently as the early 1990s, the region was dominated by a group of so-
called ``big men,'' many of whom came to power at the barrel of a gun 
rather than by the ballot box. Several were tyrants who ruled however 
they saw fit, using fear and intimidation to cling to power, and in the 
process, decimating their countries' prospects for progress. Nobel 
Laureate and Liberian President Ellen Johnson-Sirleaf wrote about that 
era, ``Africa's crisis was a failure of leadership and management. Sub-
Saharan Africa is rich in resources, talent, energy, and spirit. But it 
has not been rich in leadership. It is made up of rich countries that 
were poorly managed, and the results have been disastrous.''
    Today, these ``big men'' are being replaced by skilled, civilian 
statesmen and women who are transforming their societies and serving as 
role models for a new generation of emerging reformers. In ECOWAS 
alone, 11 of the 15 current heads of state have served for two terms or 
fewer--a remarkable transformation from those days of long-reigning 
``big men.'' These leaders include some of leading lights of not only 
Africa, but also of the developing world: President Johnson-Sirleaf of 
Liberia, former Fulbright Scholar and legal expert John Atta Mills in 
Ghana, and President Alassane Ouattara, who served as the deputy 
director of the International Monetary Fund before he began his decade-
long journey to the Presidency of Cote d'Ivoire. These leaders, and a 
growing number of their peers on the African Continent, have come to 
power through peaceful and credible elections. Increasingly, they are 
supporting each other and looking out for their neighbors, as the 
events in Mali have demonstrated. Increasingly, they are becoming key 
partners in development through initiatives such as the Partnership for 
Growth whereby the leaders of Ghana and Tanzania are working hand-in-
glove with the international community to identify and address key 
constrains to development.
    When their terms of office come to an end, a growing number of 
African heads of state now willingly and peacefully step down because 
of the term limits enshrined in their constitutions or because of an 
electoral defeat. According to the USAID-supported African Presidential 
Center at Boston University, more than 30 African heads of state are 
now in retirement after a peaceful transfer of power to their elected 
successors. At the same time, USAID is working to support civil society 
actors and government officials to prevent democratic backsliding in 
countries such as the Democratic Republic of Congo, where President 
Joseph Kabila's actions have brought his commitment to DRC's hard-won 
democratic system and electoral process into question.
    Given these trends, USAID's response to the challenge of entrenched 
African leadership is based on the three factors that have led to 
successful transitions elsewhere: channeling the growing demand for 
legitimate, accountable democratic government into development 
opportunities such as open political processes and civil society 
engagement; , developing a broader range of leaders and supporting 
reformists, and supporting regional organizations to define and improve 
the ``rules of the game'' in African politics. Africans themselves have 
led these important transformations; USAID has provided support and 
assistance to their efforts.
    The growing demand for political change derives from the 
increasingly important role of civil society and independent media 
across Africa, coupled with greater access to information and the 
growth of an African middle class and a growing number of reformists in 
government. The African Development Bank defines ``middle class'' as 
having between $2 and $20 to spend a day, and about a third of Africans 
now fall into that category. With 44 percent of its population under 
age 15, sub-Saharan Africa is the youngest region of the world, and it 
is these youth who will be the engines of Africa's future. They have 
begun holding their leaders more accountable for performance, rather 
than ideology, and they are less willing to view politics as a zero-sum 
game waged between ethnic or regional factions for control over state 
resources. This new generation demands the ability to exercise its 
right to vote in free, fair, and credible elections, as well as to keep 
the political pressure on leadership to respond to the needs of their 
citizens once the campaigns have ended.
    In Senegal, USAID focused on supporting the role of civil society 
to demand reforms, improve transparency, register young voters, and 
encourage credible elections. Senegalese civil society played a 
critical role in drawing attention to the efforts of President 
Abdoulaye Wade to influence the electoral process and improve the odds 
that he and his family would retain power. In June 2011, President Wade 
proposed an amendment to the constitution that would remove term limits 
and establish a Vice Presidency--allegedly to install his son Karim as 
his successor. Senegalese civil society erupted in uncharacteristic 
protest, causing the President to withdraw the proposal. Discontent 
continued to simmer, fueled by the peaceful protest of youth 
organizations like Y'en a Marre ([yawn-a-MAR]: ``We've Had Enough''). 
By January 2012, when a Constitutional Court decision allowed Wade to 
formally declare his candidacy, the streets of Senegal erupted again, 
this time in sporadic violence and daily protest.
    The international community, including Senators Coons and Isakson, 
Congressmen Donald Payne and Christopher Smith, former President, Jimmy 
Carter, and former Secretary of State, Madeleine Albright, appealed 
personally to President Wade to respect the letter of the constitution 
and will of the Senegalese people, and not pursue a third term. His 
public refusal to do so refocused attention on the electoral process 
and redoubled the commitment of Senegalese civil society to advocate 
for democratic principles.
    An orderly, peaceful election day demonstrated the will and 
maturity of civil society and the Senegalese political establishment. 
USAID-supported international and domestic election observation, as 
well as technical assistance to electoral management bodies and the 
election oversight committee, helped to shine a bright light on the 
electoral process and prevent the occurrence of widespread fraud or 
tampering. As the returns came in showing Wade trailing his opponent, 
former Prime Minister, Macky Sall, the President had no choice but to 
admit defeat.
    With this fair and credible election, Senegal reinforces its status 
as the vanguard of West African democracy, and may serve as an example 
to other African nations with leaders seeking to entrench themselves. 
President Sall has committed to strengthening the independence of key 
political institutions and pursuing numerous reforms, including a 
negotiated settlement of the decades-old rebellion in the Casamance 
region. USAID is coordinating with other members of the international 
community to continue to support the realization of these reforms and 
the consolidation of Senegalese democracy.
    In Sudan, the government regularly stifles open public discourse by 
cracking down on peaceful public protests and closing and intimidating 
media, which has severely limited citizens' access to information, 
including on the violence in Darfur and the Three Areas--and a 
rejection of the principle of democratic transformation that is at the 
heart of the Comprehensive Peace Agreement Khartoum signed in 2005. To 
encourage more open and inclusive public dialogue about Sudan's future, 
USAID has been helping Sudanese youth and civil society leaders learn 
ways to make their demands for change heard, including building the 
capacity of youth organizations in marginalized regions to engage in 
promoting peace and reconciliation. USAID is also supporting grassroots 
efforts by Sudanese civil society to have a dialogue on creating a more 
democratic and inclusive government, and we support initiatives to 
promote public discourse on constitutional reform. Ultimately, these 
modest efforts at educating and engaging Sudanese citizens about their 
political future will help to serve as a foundation for the country's 
eventual transition from dictatorship to a sustainable democracy. 
USAID's partners continue to face challenges operating in Sudan because 
of government restrictions on visas and permits to travel within the 
country, an issue the United States Government has raised repeatedly 
with the government.
    In addition to the growing demand for change, transitions from 
entrenched leaders in Africa have involved increased political 
pluralism: the gradual replacement of one-party states and military-
dominated governments with multiparty political systems that represent 
a more diverse range of interests and perspectives. In countries such 
as Ghana, Malawi, Senegal, and Zambia, power alternates among two or 
more major parties on a fairly regular basis. Since today's ruling 
party may be tomorrow's opposition, voters have meaningful choices on 
election day, and the empowerment to make those choices serves as an 
instrument of accountability and stability over the long term. In 
another group of countries, including Mozambique, Nigeria, and South 
Africa, a national ruling party shares power with other parties that 
govern various states, provinces, and municipalities. In all these 
countries, USAID has supported work by the National Democratic 
Institute and International Republican Institute to professionalize 
political parties, encourage party reform, support party coalitions, 
provide advice on organizing campaigns and develop the next generation 
of political leaders within and out of government, focusing on women as 
well as youth.
    In Uganda, so far, this strategy is making modest but measurable 
progress. President Yoweri Museveni has overseen the gradual reopening 
of political space and the reintroduction of political pluralism in 
exchange for the removal of term limits for his own Presidency. 
However, each election increases Uganda's exposure to the risk of 
unrest by delaying the inevitable transition to a new generation of 
political leaders. Ugandans are becoming more and more impatient for 
change and intolerant of the growing evidence of corruption that has 
tarnished even the highest levels of government in recent years.
    To bolster multiparty democracy and representative governance, 
USAID implemented a 3-year program that strengthened linkages among and 
within three key actors in the Ugandan Government's ``nerve system'': 
Parliament, local government structures, and civil society groups. The 
pioneering program, which worked to create a ``voice'' among the 
citizenry and ``listeners'' among the government, significantly 
strengthened key partners, particularly district and subcounty 
assemblies, the national official opposition, and civil society. The 
program also increased accountability and transparency in district 
governments by opening space for public scrutiny.
    The final element of success in political transitions is strong 
constitutional and institutional checks and balances that establish and 
enforce the rules of the game. Under intense pressure from civil 
society and the media, African Parliaments and electoral commissions 
have played a key role in upholding constitutional term limits in 
Ghana, Nigeria, Malawi, and Zambia. USAID spent years building the 
capacity of those institutions and organizations in advance of the 
``third-term'' debates in each country. USAID also monitors the extent 
to which civil society and the media face repression or restrictions in 
various countries, through two annual indices on media and civil 
society sustainability that complement the State Department's annual 
Human Rights Report and other independent sources of information, such 
as the Mo Ibrahim Foundation.
    An example of where these checks and balances were tested before a 
strong democratic foundation became sustainable is the Democratic 
Republic of Congo (DRC). The Presidential and legislative elections 
held in November 2011 were widely anticipated as an opportunity for the 
DRC to continue to consolidate democratic gains made during its 
successful post-conflict transition, culminating in the democratic 
election of a President and Parliament in 2006 through a nationwide, 
transparent and credible electoral system. In the DRC's second national 
election millions of Congolese citizens went to the polls to vote in an 
election that featured 11 Presidential candidates and over 18,000 
legislative candidates. In contrast to the first post-conflict national 
elections, international and domestic observers, noted considerable 
problems throughout the process--in the preelection period, on election 
day, during the tabulation of votes, and in the process for electoral 
dispute resolution. The management of the electoral process by the 
Independent National Election Commission (CENI), changed by the 
President just 8 months before election day, was generally inadequate. 
The environment in which citizens, political parties, civil society, 
news media, and other stakeholders sought to exercise their rights to 
participate in the political process was sometimes hostile and 
inequitable. And although political violence was significantly less 
severe than many feared, it was nonetheless a serious problem.
    Secretary Clinton stated that the entire process was ``seriously 
flawed, lacked transparency, and did not measure up to the democratic 
gains we have seen in recent African elections.''
    The U.S. Government and the international community will likely 
have a role to play in ensuring that future elections in the DRC are 
more credible, and in preventing further democratic backsliding. 
However, the process must be driven by the Congolese leadership--and 
governed by laws and institutions established during the transition 
period that created a level playing field and a credible system for 
balloting, counting, confirming, and announcing winners and losers--if 
the results are to be meaningful and lasting. The new CENI leadership 
needs to demonstrate to the Congolese people that it has the capacity 
to successfully manage future elections in an efficient and transparent 
manner. A thorough investigation of election-related violence, 
including incidents perpetrated by members of the security services and 
the opposition, would send the message that the government of the DRC 
and the political class take seriously their commitment to promote 
democratic processes and human rights. Journalists and human rights 
defenders detained illegally for their work should be released. 
Successful reform will require professional and fair coverage by the 
media. Finally, it is vital that the judicial personnel of the 
appellate and trial courts are capable and well trained on election law 
in advance of performing their complaint adjudication responsibilities.
    Ethiopia is one of the starkest examples of the risks that emerge 
when a country lacks sufficient democratic checks and balances. By 
significantly constraining political speech, human rights, and the 
ability of civil society and the media to hold government officials 
accountable, the Ethiopian Government is creating an environment that 
is ripe for instability and that sends mixed messages about its place 
in the international community.
    On the one hand, the U.S. Government must maintain a close working 
relationship with Ethiopia as one of our key African partners in 
fighting terrorism, countering the effects of global climate change, 
promoting food security, and providing peacekeepers in some of the most 
difficult locations in Africa such as Darfur. In fact, with the 
exception of democracy-building, USAID's programs in Ethiopia are among 
the most successful anywhere in Africa. Ethiopia commands a growing 
presence in global economics, and Prime Minister Meles Zenawi and his 
colleagues in the Ethiopian Peoples' Democratic Revolutionary Front 
(EPRDF) can take credit for lifting millions out of poverty and 
improving living standards in Africa's second-most populous country. As 
seen in the Horn of Africa's recent food crisis, millions of Ethiopians 
were able to withstand the worst effects of drought due in part to the 
Ethiopian Government's work with the international community to build 
resilience to climatic shocks.
    On the other hand, the experiences of Ethiopia's neighbors in 
Africa and the Arab World demonstrate the long-term risks of 
instability that come from suppressing basic freedoms. In 2005, 
Ethiopia held the most free and fair elections in its modern history, 
in which opposition parties appeared to have won a substantial minority 
of parliamentary seats. This outcome could have resulted in a balance 
of power-sharing between the ruling party and opposition, and a real 
opportunity for political development to match the economic 
modernization underway in the country. Instead, the ruling EPRDF 
attempted to destroy the opposition or drive it underground. Since 
then, a systematic campaign has clamped down on basic freedoms. These 
actions, including domination of the 2010 elections and the passage of 
restrictive laws like the Charities and Societies Proclamation, have 
gained the EPRDF unprecedented control over the political life of 
Ethiopia and a brittle form of stability in the near term. However, in 
the long term, Ethiopia is now in danger of reliving its history of 
turbulent political transition. Unless restrictions on civil society 
and the media are lifted and dissenting political views are allowed, 
the country's substantial gains in economic development and poverty 
alleviation will be threatened.
    Integrating democracy and governance work into the significant 
investments the United States is making in other sectors, such as food 
security and health, will give us important opportunities to support 
social and economic resilience in Ethiopian society outside of the 
ruling party structures and, to the extent feasible, participatory 
decisionmaking. To this end, USAID has developed a strategy that 
promotes a cross-cutting approach that builds democracy, human rights, 
governance, and conflict interests into its varied portfolio. The 
strategy will minimize investments in democracy and governance--such as 
human rights defenders and civil society support--until diplomatic or 
other efforts open the political space for more robust engagement. 
USAID has also developed a cross-sectoral objective in its strategy to 
promote citizen participation and social accountability around service 
delivery.
    In Zimbabwe, our top priority remains supporting the transition to 
a multiparty democracy that can address the needs of its population, as 
envisaged in the Global Political Agreement. The lack of development in 
Zimbabwe, a country that was once the breadbasket of southern Africa, 
is directly related to poor governance, making the country a tragic but 
notable example of the linkages among governance, food security, 
poverty, and health.
    USAID is supporting the efforts that exist within the government to 
improve basic conditions for Zimbabwe's citizens. We seek partnerships 
to strengthen local organizations that are providing key services and 
support to the local population--not only to meet immediate needs, but 
also to demonstrate that better governance can lead to better lives. 
Operating in a transitioning state has been especially challenging for 
our local partners: in the process of trying to improve health, 
livelihoods, freedom, and human rights for their fellow Zimbabweans, 
they face harassment and threats from the very government that should 
be their ally. We know that change must come from within the country, 
and it will not happen overnight. USAID is currently working on a new 
Country Development Cooperation strategy for Zimbabwe that will help to 
advance such change.
    U.S. support has been able to make considerable progress in 
Zimbabwe in certain areas. USAID's concerted efforts have assisted 
reform-minded elements of the government in carrying out institutional 
reforms critical for moving the country towards democracy. For example, 
the parliamentary committees are now regularly holding public hearings 
on key pieces of legislation including those addressing human rights 
and electoral processes and efforts to revise the parliamentary 
standing rules now allow the Prime Minister a question-and-answer time 
for the first time.
    Demand for change, political pluralism, and checks and balances, 
rule of law: these are among the most vital conditions for true 
democratic transformation--
a process that can take years, if not decades. USAID helps support 
environments in which these conditions can emerge, but that 
transformation can only occur through the sustained commitment of 
African leaders to serve the needs of their people, and of their people 
to have a meaningful voice in their government and the means to hold 
their leaders accountable. We must focus on the long-term institutional 
and structural weaknesses that compromise the rule of law, erode the 
quality of governance, and make citizens subservient to their 
governments, rather than the other way around. And it is only then that 
countries can begin to realize their development potential and begin to 
achieve sustainable progress and growth.
    Thank you, Mr. Chairman, Ranking Member Isakson, and members of the 
subcommittee for inviting me here today and for your continued support 
of good governance overseas and USAID's work to support it.

    Senator Coons. Thank you very much to both of our witnesses 
from the first panel for your opening statements.
    I'm going to begin 7-minute rounds, and we'll see how many 
we go through before we get to our second panel.
    I like to start, if I could, just by focusing in on 
Cameroon for a moment, and then perhaps on a few other 
examples.
    If you could, Ambassador, just tell us about the state of 
the political opposition in Cameroon, what are the scenarios in 
which there might be a transition to a more democratic and open 
regime there, a more improved system there?
    I was grateful for your detailing the many steps that were 
taken by our country, Ambassador; by you personally, by our 
allies. What else can or should be done, using regional 
leadership in partnership with African-led organizations, 
whether through retired senior statesmen from other countries, 
ECOWAS, the African Union, or others? What are the other 
players and the other roles that they might contribute to 
moving forward in Cameroon, in particular?
    Ambassador Carson. Mr. Chairman, thank you very much.
    Change is inevitable, and democratic change is inevitable 
in Cameroon. President Paul Biya has been in power for close to 
three decades. He's close to 80 years of age. And so time will 
catch up with him eventually.
    We have sought to engage him, to encourage him to think of 
his legacy and the interests of his country over his own 
personal ambitions. And we have argued for reestablishment of 
term limitations, improvement in the electoral commission, and 
implementing a number of constitutional changes that have been 
approved but never carried out.
    We have sought also to work and strengthen civil society, 
working with various of civil society groups in Cameroon to 
increase their capacity to speak clearly, openly, and actively 
about their interests. And we think that helping to strengthen 
civil society is an important part of the democratic process.
    We've also tried to encourage the strengthening of 
Parliament, so that the legislature is, in fact, a more 
independent, robust organ of government.
    We're going to continue to push very hard in this area. I 
think that on the outside, your voice, the voice of this 
committee, your expressions of interest, your writing to 
President Biya in the same manner that you wrote to President 
Wade is a useful indication to him that the international 
community is very focused on what is happening in that country 
and the need to be able to put in place stronger institutions 
and methods of transition, which will ensure stable transition 
when it comes.
    As I mentioned in my testimony, we worked very closely with 
our other democratic partners in the international community, 
particularly the British and the French and the European 
Community, to also push for the kinds of changes that we think 
support democracy. And we hope that, over time, there will be a 
louder and more independent voice within the African Union, 
which will recognize the importance of maintaining term 
limitations in order to ensure peaceful transitions.
    This is very important. The AU has taken some democratic 
stances and policies that are very good. They do not allow 
Presidents in countries to sit in the AU when the leader has 
come to power through military intervention or a coup d'etat. 
They do not allow those countries to come back in until there 
have been elected leaders appointed in those countries.
    So those are some of the things that are out there.
    Senator Coons. If I could, just one other question about 
funding.
    You've recognized, Assistant Administrator Gast, that in 
Ethiopia, for example, you've got some of the most successful 
USAID programs around health, food, Feed the Future, PEPFAR, 
PMI, but some of the least successful in terms of democracy and 
governance, in terms of demonstrable progress.
    How do we account for the balance? How do we ensure the 
successful implementation of democracy and governance 
initiatives? And what can we do to advocate for stronger, more 
effective funding in this area?
    Mr. Gast. You ask a very good question, Senator Coons. It's 
something that we have debated internally within AID, certainly 
with Assistant Secretary Carson and the interagency.
    Because the people of Ethiopia are so vulnerable to shocks, 
it is in our national interest to support the people of 
Ethiopia. And we do that through a variety of ways. You 
mentioned, of course, PMI, on malaria, and on HIV/AIDS, on food 
security. And as a result of our sustained efforts of working 
with the national government but also local organizations and 
local governments, we have had sustained, positive impact.
    As you point out, space for us to work with civil society 
organizations has essentially closed. It closed about 2\1/2\, 3 
years ago, with the passage of the charities law. And for us, 
in effect, our programs specifically working on independent 
media, promoting civil society, electoral reform, those 
programs have come to an end.
    What we do do in all of our programs, the initiative 
programs, is focus on trying to develop grassroots civil 
society organizations, within the context of the law, 
certainly, but recognizing that a grassroots approach is the 
approach that we can take now and will have positive effect in 
years to come.
    So what does that mean? It means that if we are working in 
improving the educational system, it's helping to form PTAs and 
strengthen PTAs, so that they can advocate before local 
governments to improve services.
    So it's essentially a strategy focused on, with regard to 
democracy and governance, strengthening user groups, so that 
they are able to advocate for better, improved services.
    Senator Coons. Thank you.
    Senator Isakson.
    Senator Isakson. I want to bring up a subject I'd like for 
both of you to just respond to, because it's something that 
will wake me up at night, sometimes worrying on Africa in 
particular.
    My son wrote his doctoral thesis on something called the 
``Dutch Disease,'' which primarily is a Middle Eastern 
derivative, where the countries have an infinite supply of 
wealth in terms of oil and petroleum. And they never develop 
infrastructure, and they use the money to maintain the power of 
whatever the ruling family is.
    In fact, with the exception of Israel and Jordan, that's 
pretty much the modus operandi for most of the Middle East.
    Africa, with the discovery of oil and gas, particularly on 
the Gulf of Guinea and along the coast of West Africa, the 
potential for the Dutch Disease to infect some of those 
countries worries me, because if you had a leader who got in 
control of that wealth and used that wealth to placate the 
electorate, but not for the electorate to develop and develop 
the infrastructure necessary, then you could have a second 
situation like the Middle East.
    And I'd like for both of you to comment on that and see if 
that's a justifiable fear, or if there is anything that we 
should be doing to help alleviate that from happening.
    Ambassador Carson. Senator Isakson, a very good question, 
one that we are very much concerned about.
    Let me say that oil and petroleum riches in Nigeria have 
been an enormous curse for that country. As oil production has 
gone up since the early 1970s, agricultural production has gone 
down. As oil production has risen, corruption has spiraled. As 
oil production has gone up, we have seen greater immiseration 
and poverty in the northern part of the country, as well as in 
some other parts of the country.
    And we have seen leaders in that country take enormous 
advantage of their access to oil and cash, and undermine the 
interests of the people.
    Just yesterday, within the last 48 hours, a British court 
convicted a former Nigerian Governor, James Ibori, to 13 years 
in jail for stealing some 7.7 million dollars' worth of revenue 
from Nigeria and from his state.
    This is one that is very sad. One could almost argue, and 
there are obviously people here who know more about Cameroon 
than I do, is that the little oil that Cameroon has helped to 
provide a cushion for President Paul Biya's patronage system, 
and also helped to fuel corruption in that country.
    Cameroon has significantly less oil, but I would argue that 
oil has probably been behind some of the corruption, some of 
the patronage, that has helped to keep Paul Biya in power.
    The issue is important, as you point out, because there are 
new oil-producing states all around Africa, and gas-producing 
states as well. We see oil being found in places like Uganda, 
reports of major oil finds onshore in places like Kenya for the 
first time. There are huge gas deposits in Tanzania and 
Mozambique, and we see new oil just last year in very 
significant quantities in Ghana, and oil being discovered in 
Liberia and other places in West Africa.
    Senator Isakson, in my conversations with the leaders of 
Ghana, and with the leaders of Uganda, in particular, I have 
said very clearly that they should take the high road and not 
the low road, that as they start to develop their oil 
interests, they can go either one way or the other. They can 
follow the Nigerian route, where Dutch Disease and corruption 
and oil pollution have led to enormous problems, or they can 
follow the Norwegian route, where oil has helped to enrich that 
country, provide it with great infrastructure, great schools, 
and great hospitals.
    These are the alternatives out there. The Nigerian route 
where oil causes enormous poverty as it brings in billions of 
dollars in wealth, or it can go the Norwegian route, where 
government is made better.
    These conversations we do have, and they are, in fact, very 
candid, as I say here, very clearly, I have spoken to a number 
of African leaders who are just about to become rich with oil. 
And we have said, you won't get a second chance to make a first 
good impression in the oil industry, if you go badly with us.
    I can say that the Ghanaian Government has done a very, 
very good job. They seem to be steering very, very correctly 
across--and following the laws and being transparent. We want 
others to pursue the same kind of transparency and not to 
become victims of the Dutch Disease.
    Senator Isakson. Mr. Gast.
    Mr. Gast. We are also very concerned about the possibility 
of Dutch Disease on the continent. One area of focus for us has 
been Ghana, and Ghana, as you know, is a Partnership for Growth 
country.
    Three years ago, USAID's former chief economist led a 
mission out to Ghana specifically looking at Dutch Disease and 
consulting with the government. And as a result, we formed a 
project providing technical assistance for not only the U.S. 
Government but also international partners, to include the 
Norwegians, in advising the government to come up with an 
approach that will help to reduce the possibility of moving 
into Dutch Disease.
    As you know, of course, Senators, if an economy relies just 
on one commodity, exports, the currency is strengthened and, 
therefore, it weakens the competitiveness of any of its other 
potential exports.
    So part of the exercise that the interagency has done, U.S. 
Government interagency with Ghana, is to develop a partnership 
with Partnership for Growth with Ghana that looks at multiple 
aspects of the economy to help reduce the risks of falling into 
Dutch Disease.
    Senator Isakson. My time is up. Thank you both.
    Senator Coons. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I would like to have described to me the administration's 
position on entrenched political leaders, the idea that 
longevity seems, in and of itself, to be bad.
    And I know that, Mr. Carson, you were quite outspoken back 
when Museveni was making the moves that he was making in terms 
of objecting to that.
    What is the thinking behind that? You know, in our country 
here, we didn't--until the fourth term was over with FDR--we 
didn't have term limits. I mean, can you tell me what the 
thought is behind that, to establish this policy for us to 
follow?
    Ambassador Carson. Thank you, Senator, for that question.
    We think that third terms are not very useful for Africa 
because they monopolize power in the hands of one individual, 
one family group, one region, one ethnic community, for 
extended periods of time. When leadership at the top goes 
unchallenged, then it also becomes unaccountable.
    That leadership becomes entrenched, and we see things like 
corruption and political patronage spiraling out of control. 
And there is a lack of response and respectability and 
accountability to its citizens.
    It is something that is of concern, because there is a 
tremendous yearning across Africa for democracy and for the 
opportunities that democracy presents.
    Senator Inhofe. I think, you know, the poster child for 
that concept is Zimbabwe, when you stop and you study back in 
the Rhodesia days and what one person can do to destroy a 
country, one person.
    On the other hand, there are a lot of them that--are you 
getting into--I'm not really sure what side I'm on on this 
thing, I just want to find out the reasoning for this. Is there 
a thought that we should be--we're actually not interfering. I 
think what you're saying is they have a constitution, and we 
want to say, yes, you should live by your constitution. Is that 
generally what our position is?
    Ambassador Carson. Let me say, Senator, that we hope we are 
on the side of accountable and responsible government. We hope 
that we are on the side of the people who should have a regular 
opportunity to select and choose their leaders.
    We believe that in many instances, once leaders take power, 
and stay in office for extended periods of time, they begin to 
manipulate the process, change the rules of the game, shrink 
the political space of the political opposition, and entrench 
themselves in power, to the detriment of the financial and 
political interests of the nation as a whole. That entrenched 
leadership tends to generate political unrest, and also 
instability at the same time.
    And we think that by allowing for term limits and the 
ability of political parties to be able to nominate people for 
the Presidency is a good thing, not only amongst the 
opposition, but also within the political parties that are in 
power themselves.
    Senator Inhofe. Well, have you thought about the fact that 
they might be thinking, are we interfering with what they would 
call their democratic process, their ability to make their 
determinations?
    It's a tough call, and I understand that. I happen to 
believe that--I disagreed with you in the case of Uganda, and 
probably Ethiopia, too. But I also know what some of the 
problems are there.
    When we helped establish--and I was instrumental on the 
Armed Services Committee in doing this--AFRICOM, the year 
before it had been a part of three different commands, and I 
thought this would be a good thing, a unifying thing. At the 
time, my vision was that we should have the headquarters of 
AFRICOM in Africa, on the continent.
    And this is interesting because, since this is not an 
executive session, I wouldn't want to mention the names, but 
four different Presidents that I brought this up to agreed with 
me, but they all said the problem is their electorate wouldn't 
understand. They would see this as a movement back to the 
days--and I think that's right.
    I only bring this up because I conceded to that, and I 
think they are correct.
    And of course, the day before yesterday, I was at 
Stuttgart, at the headquarters there. It's working very well. 
They're coordinating with EUCOM.
    But I also notice that it's very difficult for politicians 
to resist the temptation to try to move these headquarters 
around. There's been an effort in Texas and Florida. And I 
don't know whether Georgia has been in on this deal or not, but 
anyway, I have a strong feeling that it would be a bad move to 
move the headquarters of AFRICOM to the continental United 
States. What do you think?
    Ambassador Carson. Senator Inhofe, thank you for attempting 
to put my head into the jaws of a crocodile.
    [Laughter.]
    This is an issue that is the preserve of the Department of 
Defense. I think that the Defense Department has the mandate 
and responsibility for determining where its headquarters 
installations are to be located. And I will let them make the 
judgment.
    Senator Inhofe. OK, I understand that. I would just say 
that that shouldn't be a determination. You should be under 
consultation when those decisions are being made. And I can 
assure you that General Ham would welcome your opinions on such 
things.
    I know my time has expired, but just one last question, if 
I could.
    I know I offended a lot of people back when we were going 
through--when Alassane Ouattara won, according to some, the 
election against Laurent Gbagbo, I made nine speeches on the 
floor that I know offended a lot of people, but I had such 
strong feelings about it. And I happened to know at the time I 
was making those, and even to a lesser degree today it's true, 
that Alassane Ouattara's death squads are still roaming around 
the streets of Abidjan. And I've talked to people who are 
living on those streets, and I know that that's true.
    I had made a recommendation, and I tried to get the State 
Department, with whom I disagreed, back during this election, 
Alassane Ouattara's election was primarily motivated by the 
French, of course, and they brought the U.N. in, and we kind of 
followed course there.
    My feeling at that time was, even though--regardless of 
whose election votes you count, it was a close vote. And I 
thought for the long-term peace of Cote d'Ivoire, it would be a 
good idea, rather than go to The Hague with Gbagbo to go to a 
country that would offer asylum and not create hostility among 
the followers of Gbagbo. I still think that would've been a 
good idea, and we didn't do it. And he is in The Hague now, and 
I'm sure we'll never see him again.
    However, his wife is somewhere, and I don't know where she 
is. Everyone tells me they know where she is but me. And I 
would only request that that might be a good option for her, 
because there are a lot of followers of the Gbagbos that that 
would make a very positive impression on.
    And I'm not asking for your opinion on this thing, because 
I know this is controversial, and it's probably contrary to the 
administration's view. But just as one member, and a member who 
has been over for 125 country visits as of 2 days ago, that I 
feel would be a good solution to that problem.
    Ambassador Carson. Senator, thank you very, very much.
    Let me if I can quickly explain; we firmly believe that 
Alassane Ouattara won that election. We know what the vote 
count was throughout the country, because the count was given 
to the U.N., and they shared it with various missions.
    Mr. Gbagbo refused to step aside and sought to manipulate 
the process. We gave him an exit, sir. We gave him an exit. We 
were engaged on this on two accounts, on the democracy side and 
also on the side of trying to prevent and mitigate a conflict, 
which is one of our fundamental principles.
    President Obama sought to speak to Mr. Gbagbo on two 
different occasions. Secretary Clinton reached out to him. We 
arranged an opportunity for Mr. Gbagbo to leave Cote d'Ivoire 
and to take up residence in this country as a distinguished 
academic scholar. And he was a professor before he entered 
politics.
    He rejected all of those overtures, which would have given 
him an out.
    Between his arrest and transfer to The Hague, our people 
saw him when he was in incarceration in the northern part of 
the country. He was always treated with respect and dignity, 
and was not in any way harmed or hurt.
    The same with respect to Mrs. Gbagbo. I personally asked 
our folks to go up and meet with her, to see whether she had 
been in any way harmed or assaulted by the troops who captured 
her. She was interviewed in private by a female Embassy 
officer, so that we could get information.
    I will find out where she is right now, and again ask my 
folks whether we can request to see her again.
    I was in Abidjan in January with Secretary Clinton. We had 
an opportunity to meet with most of the senior levels of the 
government, including President Ouattara and Foreign Minister 
Duncan. We saw an Abidjan that was in full recovery mode, a 
place that was returning to normalcy.
    We have not seen or heard of these death squads. And in 
fact, just 2 weeks ago, our Under Secretary for Management 
signed off on allowing our officers to take their children and 
their dependents back into Abidjan.
    I believe that the security situation is improving rapidly 
and continues to improve. Mr. Gbagbo is a case of an individual 
who engaged in illiberal democracy, who took power, and who was 
refusing to leave, even though he had sponsored an election and 
lost.
    Senator Inhofe. OK, I certainly don't want to get into 
this. There are a lot of things that you have said that I 
disagree with.
    I would only say this, that the things that he was guilty 
of, in terms of his behavior in holding up and not taking us up 
on offers, he was convinced that the election was not an open 
and honest election.
    On the Senate floor, I presented a lot of different 
evidence that would back that up. I don't know whether you 
looked at that, examined that. I never heard from anyone in the 
State Department during that time.
    But I only offer that at this time because I thought--and, 
by the way, in terms of Simone Gbagbo, we have pictures where 
her hair was pulled out and half-naked--I mean, we had a 
hearing on that.
    Remember that?
    Senator Coons. Yes.
    Senator Inhofe. We had a hearing here, and I didn't know 
who the people were in the audience. It was kind of 
interesting. They were overwhelmingly in agreement with me, as 
opposed to the State Department, on this.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Inhofe.
    We will now thank you for the testimony of our first panel. 
Given the march of time, we are going to move, if we can, to 
our second panel.
    We're privileged to have Dr. Chris Fomunyoh and, as I 
mentioned before, Dr. Mo Ibrahim, who have come to join us and 
to share their perspectives on entrenched leadership and the 
various tools and mechanisms for making progress on the 
continent.
    Gentlemen, thank you so much for joining us today.
    Dr. Ibrahim, I would like to invite you to make your 
opening statement, if you could.

STATEMENT OF DR. MO IBRAHIM, FOUNDER AND CHAIRMAN OF THE BOARD, 
               MO IBRAHIM FOUNDATION, LONDON, UK

    Dr. Ibrahim. Thank you, Chairman. And I'm really honored, 
Senator, to be here. Thank you very much for giving me this 
opportunity and this honor.
    And I'll try to be brief. I know we're running out of time 
maybe.
    Let me start by saying it's really important to remember 
that democracy and good governance and human rights are really 
universal values. And this is not an American invention.
    And it's very important in the language we use that we be 
careful with the language. I'm talking now from a position here 
of the Congress, we are not trying to impose in Africa an 
American way of life or an American--these are values which 
happen the American people, the American Government adheres to, 
and actually all civilized people ought to adhere to. So that 
sort of the language I think is important--to use when we 
address Africa.
    And a couple things are happening in Africa, which are very 
important. One is a rise of civil society, which is a new 
phenomenon, and it's really important and changing what is 
going on there.
    The African institutions themselves are improving, and we 
can see the roles played by organizations like the African 
Union, or like ECOWAS, in dealing with conflicts, et cetera.
    And we really should focus on strengthening these 
institutions to allow them to help resolve the conflicts, like 
what happened in the recent conflicts in Mali. That's much 
easier, because, the American Government will not put troops on 
the ground in Mali. I mean, I understand, it's not easy, given 
the climate, what's happened, et cetera. But it's up to the 
African regional institutions to really do that.
    What the American Government should do is to support these 
institutions in playing the role they ought to play.
    One question, I heard people actually talking also about 
the AFRICOM. There is something called the African Standing 
Force.
    The African Union has agreed to put this standing force 
which is there to stop any kind of atrocities at the beginning, 
if there is a new Darfur or a new situation, it's much easier 
to stop fires when they are small.
    And maybe that's more important, actually than AFRICOM. 
With very little support in logistics, the United States can 
really help this African Standing Force to really deal with the 
issues. That would be less controversial than trying to put 
American soldiers in the group--or Special Forces, whatever. 
And that's also being very acceptable to the American public 
and, indeed, to the African people as well.
    The issue of longstanding African leaders who refuse to 
budge is a problem. And it has a number of facets to it.
    One element of it I think is also human, which is those 
guys have nowhere to go. I mean, it's also a human problem. You 
do your 4 years and say, OK, thank you very much. Give us the 
keys back and you can leave your helicopter here, and shall we 
call you a taxi?
    So, European leaders and U.S. leaders have a wonderful life 
after office. Actually, usually they start to make money after 
they leave office. Check everybody. The halls of JPMorgan or 
major banks and oil companies, et cetera, are full of ex-
leaders, et cetera, which is fine. They have great experience 
to help businesses, et cetera. They publish books, memoirs, and 
they really are OK.
    Our African leaders don't have that opportunity, and if 
after office, you're really facing a life of poverty, it is a 
human problem.
    And what we need is to create space for us to use the 
experience of these leaders who served to really help resolve 
conflicts, do something at multilateral organizations, et 
cetera, or indeed the academic positions offered here to one 
leader who refused it, unfortunately, and ended up in The 
Hague, which is a very good example, actually, of people refuse 
a decent exit. They should end up in The Hague, in my view.
    So it's really important to think positively instead of 
just negatively. How can we help people really do that 
transition? There is life after office, and that life can be 
wonderful. And you can always see American President--I always 
told Mr. Clinton, President Clinton, that, really, I think what 
he is doing now maybe is more important than what he did in 
office. He doesn't like that, but I think that's my personal 
view anyway.
    So there is good life after office, if people are engaged 
in, and we need to emphasize that for people.
    The United States is doing something wonderful, really, and 
nobody hears much about it, which is the Millennium Challenge 
Corporation. That is a wonderful and innovative piece of 
intervention.
    And not many people are aware of what the MCC, Millennium 
Challenge Corporation, is doing, and who has been given the 
grants and what for, et cetera.
    And I think it is really important to celebrate. We always 
look at the negative, have to shout or call names for people 
like Mugabe. We don't think of how we celebrate the people who 
are doing good things, because that in itself can be an 
incentive for other people to also do good things.
    And I ask a question, if the Millennium Challenge 
Corporation this year, for example, decides that two countries 
qualified, they have done wonderful progress in the area of 
governance, and they really need to give them some grants, why 
don't you get those two leaders here to have a cup of tea with 
President Obama, get some media, and everybody sees those guys. 
And then our leaders in Africa sees this happening and they 
think, oh, my God, I would like to be having tea with Obama 
over there.
    That's great. It will cost you exactly $3, two cups of tea. 
That's all it will cost you. And it's something which really 
celebrates and shows the positive aspects of doing good for 
your country.
    In my foundation, I mean, we do a couple of things. One of 
them is a prize for the African leader who does wonderful work 
democratically, live democratically, clean hands, and really 
move the people forward.
    And the prize is $5 million and security, $200,000 for 
life, et cetera. The idea of that is to create a life for the 
leader afterward, and then you go on and live and work in civil 
society.
    But has also another objective in that it is honor, the 
honor of--I mean, when you win the Nobel Prize, you don't say, 
``Oh, I got $1 million.'' You say, ``I got the honor of winning 
the Nobel Prize.'' So that honor is very important. Recognition 
is very important.
    And I hope the Congress or the White House can also 
recognize our winners. What bugs me as an African is that 
everywhere I go, I ask people in any lecture, who knows Mugabe? 
Everybody raises their hand. Who knows Mobutu? Everybody raises 
their hand. Who knows Omar Bashir? Everybody raises their hand. 
Who knows Chissano? Nobody knows. Who knows Mogae? Nobody 
knows. Nobody knows President--nobody knows who President is.
    We have a lot of unsung heroes, people who make tough 
decisions, brought peace to their lands, revise their economy, 
and left with clean hands and fine. Why the world doesn't know 
these people? Those people should be recognized, and it costs 
nothing.
    Mr. Chairman, just a coke. Get the guys here, give them a 
coke, get the CNN to show it. That is important.
    When we did not give the prize, the year before, we did not 
award the prize. The effect was great, because everybody said, 
oh, why is this guy and this guy did not get the prize? It 
leads to scrutiny. So whether you give the prize or don't give 
the prize, you do something important, which is you're raising 
the issue. That becomes a central issue for the debate about 
governance and leadership.
    Why my leader did not win it? Why did this guy won it? Why 
is Obama honoring this man? Why is he not honoring him? This is 
also important issues in dealing with that.
    Of course, we do the index as well, which really shows what 
is--how performance of each country, because governance is 
measured. It's not because we like this guy or don't like that 
guy. It is about good deliverables, and that's really 
important.
    One thing also that's really important, and I really want 
to thank the U.S. Congress for doing, very important, is the 
transparency bill you passed on natural resources, the oil and 
gas industries, the amendment by Senator Cardin and Senator 
Lugar.
    That was a wonderful piece of genius. It doesn't cost 
anybody any money in this hard time. But it puts the light on a 
very important area. And I go all over Europe now. I'm talking 
to the European Parliaments and people, and say look at your 
colleagues in the United States. They switched on the light. 
You are sitting here lecturing us about transparency, but 
you're doing nothing.
    You have a lot of Parliaments now trying to mimic what 
you're doing by doing that. By ensuring transparency, you're 
doing much more toward the development in Africa, actually, 
than all the aid money you give it, because Africa is not poor. 
Africa is rich. But we are mismanaged. We have corruption. We 
have money stolen, et cetera.
    Let us clear that area, and then we don't need much aid 
really, after doing that.
    But I really thank you for showing leadership in fighting 
corruption. Yesterday, we heard about the British Government 
starting corruption case against an oil company in Africa. We 
should do that. Last year, seven European companies were fined 
something like $600 million or $700 million by the U.S. 
Government for corruption out there. And I again ask our 
friends in Europe, look, Europe is bankrupt. Why aren't you, 
you know, prosecute your own guys and get the $700 million 
instead of the Americans?
    But that is something that is a brand of America, of really 
rule of law. And it carries a meaning--corruption.
    And we salute that brand. And it's very important for you 
to maintain that brand of good governance.
    And I was really disappointed recently when I see U.S. 
again claiming ownership of the World Bank. What's the big 
deal? Does it matter that the president of the World Bank is 
Zoellick or some other American citizen? Why doesn't--when your 
ambassadors in Africa go to lecture our people about process, 
about openness, ``you cannot put a finance minister in who is 
your cousin or who is from your tribe,'' et cetera, how can he 
say that with a straight face when the U.S. decides that the 
World Bank international institutional really should not be run 
by merit, it should be run by passport?
    That is inconsistent. That damages the U.S. brand.
    So the United States also needs to walk the talk.
    Thank you very much.
    [The prepared statement of Dr. Ibrahim follows:]

                  Prepared Statement of Dr. Mo Ibrahim

    As the Honourable Committee seeks to review United States policy 
options with regard to African heads of state whose behaviour 
challenges United States values and objectives, the wording might 
benefit from some amendments.
    The manipulation or disregard of constitutions by African heads of 
states is, primarily a violation of African values and objectives. 
Democracy and good governance are not American values, they are 
universal. All nations that subscribe to the Universal Declaration of 
Human Rights and other international legal instruments must uphold 
those values. Therefore the approach of the United States in seeking to 
reinforce those norms must begin from this premise.
    Since the transformation of the OAU in to the AU in 2001, there has 
been a paradigm shift that has allowed states to intervene in the 
affairs of other sovereign states. Furthermore, in recent times we have 
seen African Regional Economic Communites, ECOWAS in particular, take a 
very strong and unified position on heads of state who behave 
unconstitutionally. The immediate expulsion of Niger from ECOWAS when 
President Tandja tried to extend his mandate (and more recent actions 
regarding Cote d'Ivoire and Mali) show the political cohesion and force 
that these communities can--probably in a more efficient and 
sustainable way than any foreign partner--bring to bear on errant 
member states. Thus, by supporting and endorsing regional economic 
communities to take the lead on such issues, the United States can 
bolster the capacity of these hugely underresourced African 
institutions to solve crises while avoiding accusations of interfering 
in the affairs of sovereign nations. And this is probably the most 
efficient way to get results
    Contrast this approach with that adopted by Prime Minister Blair in 
Durban in 2002. By singling President Mugabe out for sustained 
criticism, Tony Blair inadvertedly caused other heads of state from the 
SADC region--who were at that time showing signs of frustration with 
regime--to close ranks against ``colonialist arrogance.'' Consequently, 
it has been impossible for SADC to take a progressive position on the 
political situation in Zimbabwe.
    More broadly, one must shift from a focus on individuals and naming 
and shaming to a focus on institutions and building incentives. While 
those institutions must be African, the incentives used can be more 
universal.
    One of the core reasons behind instituting the Ibrahim Prize for 
Achievement in African Leadership was the interest to to set examples 
for the continent and to prove that excellence in African leadership 
was indeed possible. But an equally important rationale was that of 
creating a life after office. While any retired heads of state 
elsewhere--whether or not he/she has demonstrated excellence in 
leadership--can serve on corporate boards and leverage their previous 
experience into high-profile and highly lucrative work, such 
opportunities rarely exist in Africa. Therefore, there is an incentive 
for leaders to remain for as long as possible and to ensure their 
financial security while in office.
    While the Prize seeks to redress this, much more could be done in 
this regard. Retired heads of state have vast experience and networks 
that could be brought to bear on some of the challenges facing the 
continent. One traditional route is leading African Union or 
Commonwealth election observer missions. It is worth noting the 
extremely important, and unrecognised, role that Former Nigerian 
President, Olesegun Obasanjo, played as AU Head of Observer Mission 
during the recent elections in Senegal.
    Moreover, as we see the ``African Renaissance'' generation of heads 
of state drawing to a close and the rise of a much younger and more 
technocratic leadership generation whose agendas are more national than 
international, it may be appropriate to create mechanisms for former 
heads of state to represent Africa in a unified way in global climate 
and trade negotiations. Such challenging, high-profile, and prestigious 
roles would offer exactly the kind of life after office that could 
contribute to a higher turnover of leaders.
    The United States has successfully identified how incentives can 
promote the good governance agenda through the Millennium Challenge 
Corporation. Initiatives that seek to praise rather than blame and 
isolate are invariably more constructive. More could be done in this 
direction through endorsing initiatives such as the Extractive 
Industries Transparency Initiative and the Natural Resource Charter, as 
well as facilitating resolution of land tenure issues. Such initiatives 
that clearly delineate public assets and create a sense of public 
ownership will invariably help to mitigate the trend whereby heads of 
state conflate national and personal assets. Conversely, approaches 
that focus too much on the individual and seek to hold them up to great 
acclaim or condemnation, perpetuates personalised rule.
    The U.S. approach to democracy and good governance, in comparison 
with other countries, has the unique advantage of being consistent with 
the identity and brand of the United States. However, this is 
undermined when U.S. processes are not seen to conform to principles of 
good governance around contentious issues such as the U.S. 
``ownership'' of the World Bank Presidency and even the debate that 
surrounded the United States Presidential election in Florida in 2000. 
In this regard, the most effective intervention would be to ensure that 
the government was able to practise what it preaches. If not, the 
subsequent loss of legitimacy will render good governance goals 
unattainable.
    Finally, in assessing the impact of the Ibrahim Prize on governance 
in Africa, I believe that the most important outcome is the debate that 
has been created, the speculation over whether incumbents will or could 
win or over whether predecessors should have won. It is exposing the 
record of heads of state to scrutiny and creating awareness that, upon 
retiring, they will be assessed by their peers very publicly. In her 
most recent book, President Johnson Sirleaf discusses her ambition to 
win the Prize. One other, now retired, head of state mentioned the 
Prize in his rationale for not seeking another term. For an initiative 
only 5 years old to begin to change behaviours is a source of real 
affirmation for the work of our organisation. Moreover, if we have had 
some success, it is because the Prize was designed as a response to a 
lack of incentives in this space and an understanding that individuals 
of all nationalities are motivated by the same things. Last, but not 
least, while we focussed on individuals, it was from the perspective of 
seeking to praise rather than blame.
    In summary, the greater the emphasis on supporting African 
institutional positions on these issues and working to align the 
incentives of heads of state with regular democratic transitions, the 
greater the likelihood of success.

    Senator Coons. Thank you, Dr. Ibrahim.
    Dr. Fomunyoh.

  STATEMENT OF DR. CHRISTOPHER FOMUNYOH, SENIOR ASSOCIATE AND 
    REGIONAL DIRECTOR FOR CENTRAL AND WEST AFRICA, NATIONAL 
              DEMOCRATIC INSTITUTE, WASHINGTON, DC

    Dr. Fomunyoh. Chairman Coons, Ranking Member Isakson, on 
behalf of the National Democratic Institute, I really 
appreciate the opportunity to discuss potential United States 
policy responses toward entrenched African leadership.
    For more than 25 years, the National Democratic Institute 
has conducted programs alongside African Democrats to support 
and consolidate the democratic governance on the continent. The 
institute has conducted programs in 44 of Africa's 54 
countries, and I've been fortunate to have been part of that 
effort for the past 19 years.
    Many Africans and African experts agree that the entrenched 
one-man rule, often autocratic in nature, is an impediment to 
political development in many African countries today. Despite 
the continent's abundant human capital and rich mineral 
resources, long-serving leaders inhibit the emergence of 
democratic political space, and many African countries still 
suffer a democracy deficit as a result.
    In some cases, these leaders are octogenarians holding 
tight at the tip of a demographic triangle where two-thirds of 
the adult population is under the age of 35.
    At the same time, significant political change has occurred 
in Africa in the last 2 decades. For example, between 1960 when 
many African countries achieved independence, and 1990, only 
three heads of states voluntarily retired from office in 
Africa. However, as a result of oncoming democratic 
transitions, by 2000 the number of heads of state that have 
either retired from office or stepped down after losing an 
election has risen to more than 30.
    Also, subregional organizations have adopted protocols on 
governance and elections that have facilitated the renewal of 
political leadership in member states. For example, by 
insisting on strict adherence to constitutionality and credible 
elections among member states, the Economic Community of West 
Africa States, ECOWAS, have given most of Africa a facelift.
    In fact, today only two of the regional blocs of 15 
countries are ruled by leaders who have been in power for more 
than 10 years.
    Similarly, norms and guidelines adopted and enforced by the 
Southern Africa Development Community, SADC, have facilitated 
peaceful political transitions and renewed leadership in 
countries such as Botswana, Malawi, Mauritius, Mozambique, 
Namibia, South Africa, and Zambia.
    Nevertheless, in still too many African countries, 
entrenched leaders hold onto power in defiance of democratic 
practices and norms enshrined in international instruments, 
such as the Universal Declaration of Human Rights, which 
require that citizens have the opportunity to renew their 
political leadership through regular and credible elections.
    In June 2005, NDI and a number of organizations brought 
together 15 former African heads of state from 14 countries in 
Bamako, Mali, to share ideas on why some African leaders 
facilitated political transitions in their respective countries 
while others impeded the process. In the Bamako declaration 
issued at the end of the meeting, these African leaders 
affirmed that, ``changes of power and political succession 
should always be based on constitutional rule in democratic 
principles.''
    In early 2012, Senegal's democracy was tested by 
controversy on the candidacy of incoming President Abdoulaye 
Wade, which was viewed by many Senegalese as contrary to term 
limits enshrined in the country's constitution. Thanks in large 
measure to effective grassroots mobilization by Senegalese 
civil society, the media, youth movements, and political 
parties, the electoral process was safeguarded, and the country 
experienced a credible transition of power.
    The Senegal example illustrates that other tenets of 
democracy had taken root across Africa, and when properly 
harnessed or mobilized can serve as the firewall to democratic 
backsliding, and in the process, remind African leaders that 
there is life after the statehouse.
    The experience of Senegal contrasts sharply with that of 
Cameroon, a country that obtained independence the same year, 
1960, and that has comparable governmental institutions. For 
the past 50 years, Cameroon has failed to conduct a national 
election that was not overshadowed by controversy.
    In Cameroon, the opaque handling of electoral processes and 
government-imposed hurdles impede the ability of civil society 
and independent media to monitor and report on elections. 
Cameroonian youth, prompted by restrictive laws and a lack of 
confidence in the country's political system and institutions 
are becoming apathetic and apprehensive of their future.
    After the Presidential election of 2011, which was widely 
criticized as poorly conducted by both domestic and 
international observers, the incoming head of state, who has 
been in power for 30 years, acknowledged publicly the need for 
electoral reform. Yet this commitment was followed a few days 
ago by amendments to the election law that restrict citizen 
participation in politics and shrink political space even more.
    There is increasing concern that the lack of political will 
to create the appropriate framework for credible and democratic 
elections in Cameroon while preserving an incumbent entrenched 
regime in power may push the country to the brink of violence 
and instability.
    The international community needs to demonstrate the 
political will to continually helping African democrats to 
uphold the high standards they have adopted for themselves.
    Along those lines, the African Union's charter on 
democracy, election, and governance calls for states to 
regularly hold ``transparent, free, and fair elections'' that 
provide citizens a voice in the selection of their leaders, and 
authorizes sanctions when incoming governments fail to abide by 
the outcome of free and fair elections or amend their 
constitutions to infringe on the principles of democratic 
change of government. The international community and the 
African Union should ensure that African governments adhere to 
the provisions of the charter.
    An increasing number of brave and courageous Africans are 
holding themselves and their leaders to higher standards of 
democratic performance.
    Today, unlike 2 decades ago, the comparison is not between 
the poor performing African states or African regimes and the 
United States, or other established democracies. The comparison 
is between the poor performance in other African countries that 
face similar economic and development challenges but still 
endeavor to give their citizens their rights and dignity they 
deserve and being proud of their constitutions and their 
elections.
    Despite the setbacks faced by African democrats beaten down 
by entrenched regimes, citizens' voices on the continent are 
being heard increasingly. And governance trends are moving in a 
positive direction for the most part.
    The continent is not doomed to failure, even on the 
leadership index. Africa has its share of emerging visionary 
leaders, and I remain optimistic that should the collective 
support for democracy be sustained and enhanced, new success 
stories will emerge.
    I've submitted longer testimony in writing, and I want to 
thank you, Mr. Chairman and Senator Isakson, for your time and 
attention.
    [The prepared statement of Dr. Fomunyoh follows:]

             Prepared Statement by Dr. Christopher Fomunyoh

    Mr. Chairman and members of the subcommittee, on behalf of the 
National Democratic Institute (NDI) I appreciate the opportunity to 
speak with you to discuss potential U.S. policy responses to entrenched 
African leadership. For more than 25 years, NDI has conducted programs 
alongside African democrats to support and consolidate democratic 
governance, advocate for fair and credible elections, strengthen 
political parties, and encourage citizen participation in politics, 
especially among women and youth. The Institute has conducted programs 
in 44 of Africa's 54 countries, and I have been fortunate to be part of 
that effort in many of those countries for the past 19 years. That has 
meant numerous and sustained interactions with pro-democracy activists 
and democratically elected leaders across the continent.

                              INTRODUCTION

    Many Africans and Africa experts would agree that entrenched one-
man rule, often autocratic in nature, is still an impediment to 
political development in many African countries today. Despite the 
continent's valuable and abundant human capital and rich mineral 
resources, many African countries still suffer a democracy deficit 
because of long serving heads of state whose actions inhibit the 
emergence of an enabling environment that could permit the continent to 
realize its full democratic potential. In some cases, these leaders are 
octogenarians holding tight at the tip of a demographic triangle where 
two-thirds of the adult population is under the age of 35.\1\
    At the same time, significant political change has occurred in 
Africa in the last two decades since the beginning of what has been 
termed the ``third wave of democratization'' in the early 1990s. For 
example, between 1960, when many African countries achieved 
independence, and 1990, only three heads of state voluntarily retired 
from office. However, as a result of ongoing democratic transitions, by 
2000 the number of heads of state that had either retired from office 
or stepped down after losing an election had risen to more than 30.\2\ 
In 1980, while rating democracies around the world, Freedom House 
ranked only 4 sub-Saharan African countries as ``free'' and 15 as 
``partly free''; by 2011, 9 were ranked as ``free'' and 22 as ``partly 
free.'' \3\
    Also, some subregional bodies have adopted protocols and guidelines 
on governance and elections that strengthen democracy and have 
facilitated the renewal of political leadership in member states. For 
example, by insisting on strict adherence to constitutionalism and 
credible elections among member states, the Economic Community of West 
African States (ECOWAS) has given most of West Africa a facelift 
despite the recent military incursions in the politics of Mali and 
Guinea Bissau. Today, only two of the regional bloc's 15 countries are 
ruled by leaders who have been in power for more than 10 years. 
Similarly, because of norms and guidelines adopted and enforced by the 
Southern Africa Development Community (SADC), Southern Africa has 
experienced peaceful political transitions and renewed leadership in 
countries such as Botswana, Malawi, Mauritius, Mozambique, Namibia, 
South Africa, and Zambia.
    Nevertheless, Africa is a mosaic and a tapestry whose leaders 
project many shades of political performance and varying degrees of 
democratic credentials. In still too many African countries, entrenched 
leaders hold onto power and govern their countries in complete defiance 
of democratic practices and norms enshrined in international 
instruments, such as the Universal Declaration of Human Rights, which 
call for citizens to have the opportunity to renew their political 
leadership through regular and credible elections. \4\ In almost all 
cases, the provisions of the Universal Declaration are also adopted in 
the preambles of the constitutions of these countries, but they are 
ignored or amended at will to suit the personal quest for political 
self-preservation of the leader.
    As of the start of 2011, 10 African heads of state had been in 
power longer than 20 years.\5\ The ``Arab Spring'' has reduced the 
number of North African autocrats in the past year, but the number of 
entrenched leaders remains high in sub-Saharan Africa. It is noteworthy 
that most of these leaders are concentrated either in the Horn of 
Africa or in the Gulf of Guinea, two areas that should be of 
significant geostrategic value to U.S. interests and attention.
    In June 2005, NDI brought together 15 former African heads of state 
from 14 countries in Bamako, Mali, to share experiences and ideas on 
why some African leaders facilitated political transitions in their 
respective countries while others impeded the process. The group also 
discussed ways that former African heads of state could continue to 
contribute positively to addressing the major challenges of democratic 
governance and human development on the continent. The African 
Statesmen Initiative was developed in part to highlight the role that 
former leaders can play as elder statesmen. In a Bamako Declaration 
issued at the end of the meeting, these African leaders restated their 
firm belief that democracy remains the ``sole form of government that 
permits the development of the range of national institutions needed to 
ensure sustainable peace, security, economic growth, and social well-
being,'' and committed themselves to using their ``good offices to 
promote development objectives and advance democratic governance.'' \6\ 
Members further affirmed that ``changes of power and political 
succession should always be based on constitutional rule and democratic 
principles,'' and they expressed grave concern that many countries on 
the continent still failed to meet such requirements for democratic 
transitions.
    Shortly after the Bamako summit, the heads of state present 
formally launched the Forum for Former African Heads of State and 
Government (Africa Forum), a group of 33 with ``strong democratic 
credentials'' that engages in activities to promote sustainable peace 
and security, enhance democratic governance and protect human 
rights.\7\ Many of these leaders have launched private foundations to 
continue good works in their respective countries, and are increasingly 
involved in conflict mediation and peacebuilding, election monitoring, 
and other humanitarian causes across the continent.

                        SOURCES OF ENTRENCHMENT

    In many cases, long-serving leaders stay in power by repressing 
political dissent and manipulating electoral and constitutional 
processes within their countries. While in the 1990s people-driven 
democratization efforts through national conferences and inclusive 
constituent assemblies led to successful constitutional reform in many 
countries, in the last decade we have seen constitutional backsliding 
in countries whose constitutions were amended to abolish term limits 
and thereby allow longserving leaders to prolong their stays in office. 
In most cases, the amendments were rushed through Parliaments without 
broad-based, inclusive discussions or extensive consultations that 
would have allowed more citizen input in the process. These cases 
epitomize the fragility of constitutionalism and institutions of checks 
and balances in many countries on the continent because while most 
constitutions in Africa may be well-written, their full and just 
implementation lags behind.
    As the bedrock upon which the nation-state is anchored, the 
fundamental law of the land ought not to be trampled upon with impunity 
else laws pertaining to issues such as human rights, the administration 
of justice, the protection of minorities, women's interests, and the 
protection of private enterprise can be easily ignored or set aside.
    While more African countries now hold regular elections that meet 
international standards, there is a correlation between flawed 
Presidential electoral processes and longevity in office. Entrenched 
leaders are more apt to structure the rules governing elections to 
ensure victory. Even if some of these leaders publicly embrace the 
rhetoric of political pluralism and competitive elections, their 
actions are often geared toward limiting political space and 
participation by creating an uneven playing field.
    Although elections alone do not a democracy make, multiparty 
elections are a pillar of democratic governance. Elections also create 
multiple opportunities to gauge the vitality of a country's democracy 
using benchmarks such as: the right of free association, as citizens 
and candidates engage in campaign activities across the country; the 
independence and impartiality of the judiciary, which may be called 
upon to rule on election-related grievances and needs to assure 
citizens that they can obtain fair and equitable recourse through 
nonviolent means; the professionalism and neutrality of security 
services; and the faith of citizens in civil discourse and tolerance of 
diverse viewpoints. Elections are a vehicle for the participation of 
citizens in the democratic process, and they help to build capacities 
that are central to achieving accountable, democratic governance. So 
when the rules around elections are designed to achieve a particular 
outcome, societal cleavages are exacerbated and the possibility of 
violence increases.
    In democracies, elections remain the sole mechanism through which 
leaders negotiate and enter into a social contract with citizens as 
they develop and debate policy positions, and ultimately obtain the 
mandate to govern. Should a leader steal an election or bend the rules 
in this very public negotiation, then it becomes easier for such a 
leader to transgress other laws and public obligations relating to 
accountability, transparency, the fight against corruption, honesty in 
government and other principles of good governance. Such issues become 
less significant in the eyes and daily conduct of that leader.

                    IMPACT OF ENTRENCHED LEADERSHIP

    Not only do entrenched leaders manipulate constitutions to deny 
citizens access to regular and credible elections, they are apt to 
further weaken governmental institutions to impede checks on their 
power. Moreover, state resources, including the public treasury, are 
likely to be diverted to serve private interests. Also, a 
disproportionate amount of national resources are likely to be 
allocated to regime security with vital aspects of human security 
relegated to the periphery. It is therefore no surprise that these 
longserving regimes measure poorly in multiple social accountability 
indicators such as Transparency International's Corruption Perceptions 
Index (CPI), the United Nations Human Development Index (HDI) and the 
Millennium Development Goals, even when they are oil-rich countries 
with moderate to high income per capita.
    African heads of state that insist on remaining in power for 
decades are antithetical to the growing sense of optimism among 
Africans and friends of Africa about the continent and its future. They 
also are an oddity on a continent in which an estimated 83-percent of 
the population is under the age of 40,\8\ which explains in part the 
reason why even though Africans remain strongly committed to democracy, 
they are equally less pleased with the performance of many of their 
leaders. Despite the challenges of democratization in today's Africa, 
NDI is heartened by a recent Afrobarometer study that showed that a 
large majority of Africans continue to aspire to the ideals of 
democracy. While satisfaction with the performance of leaders in the 
countries sampled had dropped in the last decade from 61 to 56 percent, 
support for democracy among citizens had grown from 69 to 72 percent in 
the same period.\9\

                            TURNING THE TIDE

    Through the first quarter of 2012, Senegal's democracy was tested 
by controversy over the candidacy of incumbent President Wade, viewed 
by many Senegalese as contrary to the term limits enshrined in the 
country's constitution. Thanks in large measure to effective grassroots 
mobilization by Senegalese civil society, the media, youth movements 
and political parties, the electoral process was safeguarded and the 
country experienced a credible transition of power. The Senegal example 
is significant because it illustrates that other tenets of democracy 
are taking root across Africa, and when properly mobilized can serve as 
a firewall to democratic backsliding. To Wade's credit, his timely 
concession was unprecedented for an African leader who had tried at a 
minimum to push the envelope in terms of his stay in office. That 
concession is also a reflection of a greater trend toward democratic 
governance in many parts of Africa and an increasing recognition by 
African leaders that there is life after the State House.
    The experience of Senegal contrasts sharply with that of Cameroon, 
a country that obtained independence the same year--1960--and that has 
comparable governance institutions. Unlike in Senegal, for the past 50 
years, even after the return to multiparty politics in 1990, Cameroon 
has failed to conduct a national election that was not overshadowed by 
controversy. Over the years in Cameroon, the opaque handling of 
electoral processes has aided manipulation by government official at 
all levels, and administrative hurdles impede the ability of civil 
society and independent media to monitor and report on elections. 
Political discourse is highly polarized, and there is a distinct 
unwillingness among the ruling elite to recognize the rich, diverse 
viewpoints that exist within Cameroonian society. Cameroonian youth, 
prompted by restrictive laws and a lack of confidence in the country's 
political system and institutions, are becoming apathetic and 
apprehensive of their future. After the Presidential election of 2011, 
which was widely criticized as poorly conducted by both domestic and 
international observation missions,\10\ the incumbent head of state, 
who has been in power for 30 years, acknowledged publicly the need for 
electoral reform. Yet this commitment was followed a few days ago by 
the government adopting amendments to the election law that restrict 
citizen participation in politics and shrink political space even 
further. There is increasing concern that the lack of political will to 
create the appropriate framework and mechanisms for credible democratic 
elections, while preserving an entrenched regime in power, may be 
pushing the country to the brink of violence and instability. The 
cumulative effect of these factors impedes the bright and prosperous 
future for Cameroon that other African countries such as Senegal, 
Ghana, Benin, and Botswana have come to take for granted. Cameroonians 
realize that in the past 30 years, Senegal has had four Presidents--
Leopold Sedar Senghor, Abdou Diouf, Abdoulaye Wade, and Macky Sall--and 
its reputation continues to grow across the continent and around the 
world; and they wonder why, over the same 30-year period, a de facto 
one-man rule has imposed itself on them.
    In a number of other African countries, Parliaments have vetoed 
attempts by incumbent Presidents to extend their terms of office, even 
when the majority in Parliament belonged to the incumbent party. This 
remarkable show of independence and commitment to constitutionalism and 
the rule of law among African legislators contributed measurably to 
fostering peaceful democratic transitions in Nigeria in 2007, Malawi in 
2002, and Zambia in 2001.
    These examples highlight the role that countervailing 
institutions--legislatures, the media, and civil society--play in 
balancing the power of the executive, with the corollary understanding 
that as these institutions gain in credibility and performance, they 
become more adept at curbing entrenched leadership.

        RECOMMENDATIONS FOR THE INTERNATIONAL COMMUNITY AT LARGE

    Clearly, citizens living under entrenched regimes have no access to 
the freedoms that their peers enjoy in more democratic societies. They 
often live with a constant threat of repression, intimidation, and 
harassment if they attempt to make their voices heard. The absence of 
proper mechanisms for dialogue between citizens and those that govern 
in these societies means that citizens have no choice when their 
frustrations overflow than to express them in the public space, often 
at the risk of vociferous repression and loss of life. In Cameroon in 
2008, riots linked in large part to grievances over the government's 
decision to amend the constitution and eliminate term limits were 
severely repressed and officially left 40 young men and women dead, 
although credible human rights organizations, including the Catholic 
Church, reported over 100 deaths.\11\
    By strengthening representative institutions and civil society 
organizations, the international community can help African democrats 
consolidate or deepen the fragile democratic gains of the last two 
decades. Independent election commissions are essential to holding 
credible elections that create a level playing field for all 
contestants, and nonpartisan citizen election observers can deter 
manipulation and provide information about the credibility of election 
results. A well-organized, vibrant civil society can be an effective 
watchdog against the emergence of entrenched leaders. More effective 
legislatures and independent judiciaries can provide safeguards to the 
many Africans that aspire to be governed democratically. While 
international support for development of these institutions can 
increase the possibility of strong counterbalances to entrenched 
leaders, consistent public diplomacy can go a long way in assuring 
African democrats that they are part of a global community of democrats 
with shared values and ideals.
    As African regional bodies operationalize protocols to promote and 
protect democratic governance, the international community should 
demonstrate the political will to support these regional networks in 
upholding the high standards they have adopted for themselves. Along 
these lines, the African Union's Charter on Democracy, Elections, and 
Governance, now ratified by enough African countries to be binding, 
calls for states to regularly hold ``transparent, free, and fair 
elections'' that provide citizens a voice in the selection of their 
leaders. Furthermore, the Charter authorizes sanctions when incumbent 
governments fail to abide by the outcomes of free and fair elections or 
amend their constitutions to infringe on the ``principles of democratic 
change of government.'' \12\ Regional organizations such as ECOWAS and 
SADC have adopted similar protocols aimed at fostering democratic 
governance and have shown firm responsiveness to unconstitutional 
maneuvers such as the recent coups in Mali and Guinea-Bissau and the 
flawed Presidential election of November 2011 in The Gambia. The 
international community and the African Union should ensure that 
African countries adhere to the provisions of the Charter and relevant 
protocols to foster democracy and consolidate the gains of recent 
years.
    The international community can also highlight the role of elder 
statesmen and increase recognition for leaders who govern justly and 
facilitate peaceful and meaningful leadership transitions that respect 
the letter and the spirit of the constitutions of their respective 
countries and international norms. Along these lines, NDI expresses its 
appreciation to Dr. Mo Ibrahim and his Foundation for his leadership in 
this regard and for helping reinforce the message to incumbent African 
leaders that there are meaningful opportunities in life after office.
    Even if more needs to be done in specific countries based on the 
particularities of each case study, the international community at 
large will do well to recognize more firmly that African aspirations 
for democracy are genuine and legitimate, borne not just in the 
universality of freedom and democratic values but also in the very 
fundamentals of African culture--respect for human life and human 
dignity. In today's globalized world, as events in one country or 
continent impact developments in other spheres, denying leadership 
opportunities to a whole generation of African youth and emerging 
leaders deprives Africa and the rest of the world of the tremendous 
talent, exuberance, and energy that the continent is capable of 
contributing to a better world in the 21st century. It is a travesty of 
generational injustice that a handful of leaders should be the 
perpetrators of such deprivation.

                               CONCLUSION

    An increasing number of brave and courageous Africans are holding 
themselves and their leaders to high standards of democratic 
performance. Today, unlike two decades ago, the comparison is not 
between the poor performing African regimes and the United States or 
other established democracies; the comparison is between the poor 
performers and other African countries that face similar economic and 
developmental challenges, but still endeavor to give their citizens the 
rights and dignity they deserve in being proud of their constitutions 
and elections.
    Despite the setbacks faced by African democrats pinned down by 
entrenched regimes, citizens' voices on the continent are being heard 
and governance trends are moving in a positive direction for the most 
part. The continent is not doomed to failure, even on the leadership 
index. Africa has its share of success stories with emerging visionary 
leaders, and I am optimistic that should the collective support for 
democracy be sustained and enhanced, new success stories will emerge.

----------------
End Notes

    1. U.S. Census Bureau, ``International Data Base.'' 2012 population 
estimates for Chad and Cameroon.
    2. Goldsmith, Arthur A. ``Risk, Rule, and Reason in Africa.'' 
African Economic Policy Discussion Paper 46, (Washington: USAID, 2000).
    3. Freedom House. ``Freedom in the World'' 1980 and 2011. (http://
www.freedomhouse.org/report-types/freedom-world)
    4. United Nations Universal Declaration of Human Rights, Article 
21. (http://www.un.org/en/documents/udhr/index.shtml#a21)
    5. Muammar Gaddafi of Libya (42 years as head of state), Teodoro 
Obiang Nguema of Equatorial Guinea (32 years), Jose Santos of Angola 
(32 years), Robert Mugabe of Zimbabwe (31 years), Hosni Mubarak of 
Egypt (30 years), Paul Biya of Cameroon (29 years), Yoweri Museveni of 
Uganda (25 years), King Mswati III of Swaziland (24 years), Blaise 
Campore of Burkina Faso (24 years), and Zine Ben Ali of Tunisia (23 
years).
    6. Bamako Declaration of the African Statesmen Initiative.( http://
asi.ndi.org/about/declaration/bamako_declaration.pdf)
    7. The Forum of Former African Heads of State and Government 
(Africa Forum): In Brief. (http://www.africaforum.org/images/stories/
pdf/africa%20forum%20brief.pdf)
    8. U.S. Census Bureau, International Data Base. 2012 population 
estimates for sub-Saharan Africa.
    9. Afrobarometer Surveys. (http://www.afrobarometer.org/index.php)
    10. ``The Electoral Process in Cameroon: What Are the Lessons 
Learned?'': Remarks by Ambassador Robert P. Jackson at the Civil 
Society Post-Election Roundtable. 19 October 2011. (http://
yaounde.usembassy.gov/sp_10192011.html)
    11. U.S. Department of State, ``2008 Human Rights Report: 
Cameroon,'' February 25, 2009. (http://www.state.gov/j/drl/rls/hrrpt/
2008/af/118990.htm)
    12. The African Union, ``African Charter on Democracy, Elections 
and Governance.'' http://www.africa-union.org/root/au/Documents/
Treaties/text/Charter%20on%20Democracy.pdf)

    Senator Coons. Thank you.
    Senator Isakson, did you want to say something in 
conclusion?
    Senator Isakson has to leave. I will have a few more 
questions.
    Senator Isakson. I apologize for that. I want to commend 
Dr. Fomunyoh. Is that----
    Dr. Fomunyoh. That's correct.
    Senator Isakson. With Isakson, I'm always sensitive to 
pronunciation.
    Dr. Fomunyoh. Thank you.
    Senator Isakson. I want to commend you. Your prepared 
statement is a very thoughtful history, really, of Africa and 
democracy that everybody ought to read, and you make some 
outstanding points about the success of Nigeria and Malawi and 
Zambia as a trend that is taking place in Africa.
    And Chairman Coons and I visited Benin and Ghana last year 
about this time, with Ghana, President Mills has done a 
remarkable job.
    And I think what Dr. Ibrahim talked about in terms of that 
MCC, there's no better example of the payback of MCC than in 
Ghana, where we had taken the pineapple industry, which for 
them was a great industry, but so perishable. And now, because 
of an MCC grant, we've been in the chiller where they have 14 
plantations together, where they store, process, and then ship 
the pineapples. And it's just been a phenomenal experience to 
see MCC and its requirements on doing away with corruption and 
making investment in the country pay off.
    So I want to thank both of you for your testimony and for 
your love of Africa. And I want to commend this history piece 
that you wrote for us, Doctor, it's outstanding. And I'm going 
to take it with me and make it a part of my library.
    Thank you very much, Mr. Chairman.
    Senator Coons. Thank you, Senator Isakson.
    And thank you for your attendance and leadership today.
    I have a few more minutes and then there is a budget 
committee hearing, which I, too, must join.
    Dr. Fomunyoh, I just wanted to bear down for a moment on 
Cameroon in particular.
    You heard the testimony of Assistant Secretary Carson 
earlier. He urged us to write a letter to President Biya, much 
as we did jointly, Senator Isakson and I, to President Wade of 
Senegal. We talked about a variety of different tools available 
to the AU, to the African community, to civil society, and to 
the United States.
    What advice do you have for us about what we could do to
be constructive, to make progress in Cameroon? And what do you 
see as the costs for Cameroonians of 30 years of governance by 
one man and by one group? How has it affected the average 
Cameroonian?
    Dr. Fomunyoh. Thank you very much. Mr. Chairman.
    I think that it's a lot that you have already been doing. 
Just by holding this hearing, I've been made to understand that 
there's been a lot of discussion already in the independent 
media in Cameroon about the attention you are bringing to 
African issues within the U.S. Congress.
    There are a number of public diplomacy tools that really 
don't cost anything, as Dr. Mo Ibrahim was saying, but that 
have a huge impact on the African Continent. I think when the 
U.S. Government speaks, any branch of the U.S. Government 
speaks out on African issues, people listen and people pay 
attention.
    I can say that the letter that you sent to President Wade 
on the Senegalese situation had a huge impact, because it did 
embolden the democrats of Senegal to know that they were not 
alone. And I think that's a very important message to send to 
people who put their lives on the line on a daily basis, 
sometimes in extremely difficult circumstances, to realize that 
they are part of a global community of democrats and people who 
care about democracy and good governance around the world.
    For the average Cameroonian, they look at Senegal, and they 
realize in the last 30 years, Senegal has had four heads of 
state, Sedar Senghor, Abdou Diouf, Abdoulaye Wade, and now 
Macky Sall. But in the same 30-year period, Cameroon has been 
subjected to one-man rule. And it dampens a sense of--it 
reinforces a sense of hopelessness, which we cannot allow to be 
sustained within the youth population.
    And it explains, to a large degree, why the youth 
population is becoming very detached from political engagement. 
And it also raises the prospect that ultimately, at some point, 
if citizens lose faith in the electoral process and in the 
ability to change their leaders through a credible democratic 
process, they're going to think of other means to have their 
voices heard. And I think the last thing we need on our hands 
is another incident of violence and instability on the African 
Continent.
    Senator Coons. Thank you, Dr. Fomunyoh.
    Dr. Ibrahim, if you might, you talk about the need for 
incentives, for recognition, for legacy, for a place to go, for 
a peaceful and appropriate opportunity after national 
leadership. And in our own national history, George Washington 
gave us a huge gift by, at the moment that he could have made 
himself President for life or king, handing back the reins of 
power and receding, and so, too, President Mandela of South 
Africa, who has been honored by your foundation for this, gave 
an enormous gift of leadership by demonstrating his 
selflessness in relinquishing control of the Presidency of 
South Africa.
    I just want to start by thanking you for what your 
foundation has done, for what you have done, to celebrate and 
recognize.
    I'd be interested in your view of what we can to do to 
continue to celebrate and recognize. Your idea of having us 
have leaders for a coke or encourage our President to have them 
for a tea I find charming and hopefully effective.
    But when we're talking about sending a letter to President 
Wade or President Biya, to some extent, this could be 
misinterpreted as a finger-wagging or shaming. Some have 
criticized the United States for not more vocally and publicly 
criticizing entrenched leaders like President Biya. But a lot 
of those communications have happened diplomatically, 
privately, in letters or communications that are less public.
    I'd welcome your advice on how to be most effective, how to 
be most respectful, but how the United States, given the 
sensitivities, how European countries like the United Kingdom--
we spoke earlier about former Prime Minister Blair's 
unconstructive role with Mugabe--how we can be effective in 
calling out those who perhaps deserve a trip to The Hague or 
perhaps deserve public opprobrium, and then how we balance that 
with offering encouragement and legacy and positive 
reinforcement for those who would seek that.
    Dr. Ibrahim. I really think, by mixing the incentives with 
the finger-wagging, then it doesn't become just finger-wagging.
    I think people should make a statement. I mean, I'm 
wondering why Mr. Sarkozy, for example, did not say anything 
about the election in Cameroon, unless he said something I 
haven't heard about it. I'm sure he didn't. Because that's also 
power, which has an effect.
    But if the United States and France, both of them said, 
really, this is not nice. And you know want? You're not going 
to be welcome in this country. That would be huge, a huge 
effect.
    At the same time, it would not be seen really as much as 
interfering in the internal affairs of the country, because you 
just made a statement--I will not give you a visa if you come 
to this country, which is not a big deal--but beside that, we 
need incentive for the good people as well, because that will 
always shed the light even on the guys who did not get it. And 
that I think is a balancing act between the two.
    Please, by any means, don't be shy in pointing fingers. But 
do the other things as well, so we don't appear only as just 
pointing a finger at people.
    And let us help build institutions and do things. I don't, 
for example, I did not enjoy very much the sight of American 
activists being taken out of Cairo by private plane, having 
paid so many millions just to get out. What were American 
activists doing in Cairo anyway? They have a few million 
Egyptian activists. You help institutions and instead of trying 
to intervene yourselves, just more appreciate it--because there 
are some people there, for good reasons or bad reasons, they're 
trying to find some reason to say, oh, the United States is 
trying to do something here, which in many cases is not fair.
    Senator Coons. Both of you have pointed out the very 
constructive role that ECOWAS has played. I take that advice 
about how we can work more constructively with regional 
institutions.
    I now need to bring this hearing to a close. We're at a 
time when I must.
    Dr. Ibrahim. Thank you, sir.
    Senator Coons. I have to speak also at the Budget 
Committee.
    I wanted to thank you for your constructive comments on the 
extractive industries part of the Dodd-Frank Act, also your 
positive comments on the Millennium Challenge Corporation. And 
we look forward to working together with you to find ways to 
further strengthen the recognition of those African leaders who 
make appropriate transitions.
    With that, we will keep the record open until Friday, April 
20, for members of the committee who were not able to join us 
but have questions they would like to submit to either panel.
    Senator Coons. Thank you both very much for your testimony 
today.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Response of Assistant Secretary Johnnie Carson to Question Submitted
                       by Senator James M. Inhofe

    Question. As we discussed at the hearing, First Lady Simone Gbagbo 
of Cote d'Ivoire has been held in captivity by Ouattara's rebel forces 
in the north of the country virtually incommunicado. She has been 
brutalized, starting when Rebel forces and French forces pulled her out 
of the Presidential Residence by her hair last April--I showed the 
public a picture of her bloody scalp on the Senate floor at the time 
and several times since.
    Mr. Assistant Secretary, now that President Gbagbo has been 
secretly transferred to the International Criminal Court in The Hague, 
and will probably never be released from prison, I want again to 
request that the U.S. Government help facilitate the release of Simone 
Gbagbo and allow her to leave Cote d'Ivoire and go into exile. I have 
already given you the name of one African country that will grant her 
asylum immediately.
    The United States has done this type of activity in the past. In 
1986, the Reagan administration assisted Haiti's ``Baby Doc'' Duvalier 
go into exile in France.
    This constitutes my second formal request on behalf of First Lady 
Gbagbo to the State Department, as I sent Secretary Clinton a letter on 
January 12, 2012, before her departure to Cote d'Ivoire, but have not 
received a formal response. I strongly believe that the process of 
reconciliation in war-ravaged Cote d'Ivoire can begin only if Simone 
Gbagbo is given asylum.

  <bullet> Will the Department of State support and facilitate the 
        release and transfer of Simone Gbagbo from Cote d'Ivoire to 
        that African country, I have shared with you, that will grant 
        her immediate asylum?

    Answer. The Government of Cote d'Ivoire charged Simone Gbagbo with 
economic crimes against the state on August 16, 2011. We will continue 
to encourage the Government of Cote d'Ivoire to ensure that individuals 
who have been charged with crimes in Cote d'Ivoire are afforded due 
process, other fair trial guarantees, and held accountable if found 
guilty, or released if found innocent.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
